         AUDIT OF THE 

  ASSETS FORFEITURE FUND 

                AND 

 SEIZED ASSET DEPOSIT FUND 

ANNUAL FINANCIAL STATEMENTS 

     FISCAL YEAR         2013 

      U.S. Department of Justice 

    Office of the Inspector General 

             Audit Division 


          Audit Report 14-08 

            February 2014 

                           AUDIT OF THE

                     ASSETS FORFEITURE FUND

                               AND

                    SEIZED ASSET DEPOSIT FUND

                   ANNUAL FINANCIAL STATEMENTS

                         FISCAL YEAR 2013


                 OFFICE OF THE INSPECTOR GENERAL

                    COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the Assets
Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF) for the fiscal years (FY)
ended September 30, 2013, and September 30, 2012. In accordance with the Civil
Asset Forfeiture Reform Act of 2000 (28 U.S.C. §524(c)(6)), and under the
direction of the Office of the Inspector General (OIG), KPMG LLP performed the
AFF/SADF’s audit in accordance with auditing standards generally accepted in the
United States of America. Effective for FY 2013, auditing standards generally
accepted in the United States of America use the term “unmodified” opinion instead
of “unqualified” opinion. The definition of the two terms is substantially the same.
An unmodified opinion means that the financial statements are presented fairly, in
all material respects, in accordance with U.S. generally accepted accounting
principles. The FY 2013 audit resulted in an unmodified opinion on the financial
statements. For FY 2012, the AFF/SADF received an unqualified opinion on its
financial statements (OIG Audit Report No. 13-07).

       KPMG LLP also issued reports on internal control over financial reporting and
on compliance and other matters. The auditors identified one significant deficiency
in the FY 2013 Independent Auditors’ Report on Internal Control over Financial
Reporting Based on an Audit of Financial Statements Performed in Accordance with
Government Auditing Standards. The significant deficiency related to inadequate
controls over financial reporting. During FY 2013, the AFF/SADF fully implemented
the Unified Financial Management System. As a result of the changes in work
processes and additional requirements associated with the implementation, certain
errors occurred that were not analyzed timely and corrected. Additionally, there
were incidences of inadequate review prior to recording significant journal
vouchers. The AFF/SADF management agreed with the report’s four
recommendations to improve the controls over financial reporting.

       No instances of non-compliance or other matters that are required to be
reported under Government Auditing Standards were identified during the audit in
the FY 2013 Independent Auditors’ Report on Compliance and Other Matters Based
on an Audit of Financial Statements Performed in Accordance with Government
Auditing Standards. Additionally, KPMG LLP’s tests disclosed no instances in which
the AFF/SADF financial management systems did not substantially comply with the
Federal Financial Management Improvement Act of 1996.




                                         -i-
       The OIG reviewed KPMG LLP’s reports and related documentation and made
necessary inquiries of its representatives. Our review, as differentiated from an
audit in accordance with Government Auditing Standards, was not intended to
enable us to express, and we do not express, an opinion on the AFF/SADF financial
statements, conclusions about the effectiveness of internal control, conclusions on
whether the AFF/SADF’s financial management systems substantially complied with
the Federal Financial Management Improvement Act of 1996, or conclusions on
compliance and other matters. KPMG LLP is responsible for the attached auditors’
reports dated December 5, 2013, and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not comply, in all
material respects, with auditing standards generally accepted in the United States
of America.




                                        -ii-
                                AUDIT OF THE

                           ASSETS FOREITURE FUND

                                    AND

                         SEIZED ASSET DEPOSIT FUND

                        ANNUAL FINANCIAL STATEMENTS

                              FISCAL YEAR 2013


                                 TABLE OF CONTENTS


                                                                                       PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS ................................................... 3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON THE FINANCIAL STATEMENTS .................................................. 15


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING BASED ON AN

     AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH

     GOVERNMENT AUDITING STANDARDS ................................................... 19


  REPORT ON COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT OF

     FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH

     GOVERNMENT AUDITING STANDARDS ................................................... 25


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS............................................................. 29


  CONSOLIDATED STATEMENTS OF NET COST ............................................... 30


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION...................... 31


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ................................. 32


  NOTES TO THE FINANCIAL STATEMENTS .................................................... 33


OTHER INFORMATION


  COMBINED SCHEDULE OF SPENDING ......................................................... 71


APPENDIX


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

    OF ACTIONS NECESSARY TO CLOSE THE REPORT.................................... 75

This page intentionally left blank. 

     U.S. DEPARTMENT OF JUSTICE
	
Assets Forfeiture Fund and Seized Asset Deposit Fund


         Management's Discussion and Analysis
	
                    (Unaudited) 





                          -1-
This page intentionally left blank. 





                 -2-
                                   U.S. Department of Justice
	
                     Assets Forfeiture Fund and Seized Asset Deposit Fund
	
                            Management’s Discussion and Analysis
	
                                                        (Unaudited)
	

MISSION
	
The primary mission of the Department of Justice (DOJ or the Department) Asset Forfeiture Program
(AFP or the Program) is to prevent and reduce crime by disrupting, damaging, and dismantling
criminal organizations through the use of the forfeiture sanction. This is accomplished by means of
depriving drug traffickers, racketeers, and other criminal syndicates of their ill-gotten proceeds and
instrumentalities of their trade. Components responsible for the administration and financial
management of the AFP are charged with lawfully, effectively, and efficiently supporting law
enforcement authorities in the application of specified forfeiture statutes. The Assets Forfeiture Fund
(AFF or the Fund) and Seized Asset Deposit Fund (SADF) together comprise a single financial
reporting entity of the DOJ, which includes the specified funds, property seized for forfeiture, and the
transactions and program activities of DOJ forfeiture program components and other participating
agencies as described more fully herein.

ORGANIZATION STRUCTURE

Table 1 below displays the primary functional activities of the participating agencies in the AFP. For
the full names of the participating agencies, see Footnote 1. These agencies investigate or prosecute
criminal activity under statutes, such as the Comprehensive Drug Abuse Prevention and Control Act of
1970, the Racketeer Influenced and Corrupt Organizations statute, the Controlled Substances Act, and
the Money Laundering Control Act, or provide administrative support services to the Program.

                                Table 1. Asset Forfeiture Program Participants by Function 

     Function       AFMLS OCDETF AFMS ATF        DCIS    DEA      DS     EOUSA     FBI    FDA    INTERPOL-W   USDA USMS USPS

    Investigation           X               X      X       X         X              X       X        X         X              X
      Litigation     X                                                     X
     Custody of
                                            X              X                        X                                 X
       Assets
    Management       X               X


FINANCIAL STRUCTURE
The AFP is comprised of two funds, which are under the management control of the Asset Forfeiture
Management Staff (AFMS). The AFF is a special fund listed in the U.S. Treasury Federal Account
Symbols and Titles Book as 15X5042. The SADF is a deposit fund listed as 15X6874.




  The participants include the Asset Forfeiture and Money Laundering Section, Criminal Division (AFMLS); Organized Crime Drug
Enforcement Task Force (OCDETF); Asset Forfeiture Management Staff, Justice Management Division (AFMS); Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF); Defense Criminal Investigative Service (DCIS); Drug Enforcement Administration (DEA);
Bureau of Diplomatic Security, Department of State (DS); Executive Office for United States Attorneys (EOUSA); Federal Bureau of
Investigation (FBI); Food and Drug Administration (FDA), INTERPOL-Washington (INTERPOL-W); United States Department of
Agriculture (USDA); United States Marshals Service (USMS); and United States Postal Service (USPS).




                                                               -3-
The AFF was created by the Comprehensive Crime Control Act of 1984 to be the repository of the
proceeds of forfeitures under any law enforced and administered by the DOJ (28 U.S.C. § 524(c)). All
amounts earned from the investment of AFF and SADF balances are deposited into the AFF. The
interest earned on the AFF balances is the property of the United States Government.

Monies deposited in the AFF are used to cover operating costs of the Program. These costs include,
for example, asset management and disposition expenses; equitable sharing payments to participating
state, local, and foreign governments; Automatic Data Processing (ADP) equipment expenses; contract
service payments; and payments of innocent third party claims. All salaries and employment related
expenses, liabilities, and imputed financing costs of DOJ AFP participants are reported in the financial
statements of the participants’ reporting entities. Salaries and employment related costs of
administrative personnel of the AFMS, AFMLS, EOUSA, and USMS are charged to the AFP as
program operating costs. The AFP’s operating costs do not include the costs of any participant salaries
incurred while conducting investigations leading to seizure and forfeiture.

While the AFF is the repository for forfeited currency and proceeds arising from the sale of forfeited
property and also serves as the operating fund for specified program expenditures, the SADF serves as
a repository for seized currency and specified deposits.

The SADF was created administratively by the DOJ to ensure control over monies seized by agencies
participating in the DOJ’s AFP. Public Law (P.L.) 102-140, dated October 28, 1991, provided
authority for the investment of SADF balances pending adjudication. Generally, monies in the SADF
are not the property of the Government. The SADF holds seized cash, the proceeds of any
pre-forfeiture sale of seized property, and forfeited cash not yet transferred to the AFF. Operating
businesses under seizure also may be managed through the SADF. Because most funds held in the
SADF are not Government property, monies in the SADF cannot be expended. SADF balances are
transferred to the AFF upon the successful conclusion of a forfeiture action.

The Fund receives most of its revenue from the forfeiture of cash and other monetary assets and,
secondly, from the sale of forfeited property. AFP participants may receive annual allocations by
suballotment advice or reimbursement agreement. The Fund’s first priority is to cover the business or
operational expenses of the AFP. After it is determined that there will be sufficient receipts,
allocations may be made for investigative expenses, such as awards for information, purchase of
evidence, and equipping of conveyances, and also discretionary expenses, such as storage, protection
and destruction of controlled substances.

Limitations on the Use of the Assets Forfeiture Fund

The AFF is defined by statute. Authorities and limitations governing the use of the AFF are specified
in 28 U.S.C. § 524(c). In addition, use of the AFF is controlled by laws and regulations governing the
use of public monies and appropriations (e.g., 31 U.S.C. § 1341-1353 and 1501-1558, Office of
Management and Budget (OMB) Circulars, and provisions of annual appropriation acts). The AFF is
further controlled by the Attorney General's Guidelines on Seized and Forfeited Property (July 1990),
policy memoranda, and statutory interpretations issued by appropriate authorities. Unless otherwise
provided by law, restrictions on the use of AFF monies retain those limitations after any monies are
made available to a recipient agency. Moreover, monies are available for use only to the extent that
receipts are available in the AFF.




                                                 -4-
In Fiscal Year (FY) 2013 and 2012, monies were available under a permanent indefinite appropriation
to finance the following:

   (1)		   The operational costs of the forfeiture program, including handling and disposal of seized
           and forfeited assets, and the execution of legal forfeiture proceedings to perfect the title of
           the United States in that property.

   (2) The payment of innocent third party claims.

   (3)		   The payment of equitable shares to participating foreign governments, and state and local
           law enforcement agencies.

   (4) The costs of ADP equipment and ADP support for the Program.

   (5) Contract services in support of the Program.

   (6) Training and printing associated with the Program.

   (7) Other management expenses of the Program.

   (8)	    Awards for information leading to forfeiture.

   (9) Joint Federal, state, and local law enforcement operations.

   (10)		 Investigative expenses leading to seizure.

Resources of the AFF are intended to cover the business expenses of the AFP, with any excess
balances available for discretionary purposes, including investigative expenses subject to
appropriations limitation (definite authority). Excess unobligated balances identified at the end of a
fiscal year may be declared a "Super Surplus" balance. Super Surplus balances may be allocated at the
discretion of the Attorney General for ". . . any Federal law enforcement, litigative/prosecutive, and
correctional activities, or any other authorized purpose of the DOJ" pursuant to 28 U.S.C. §
524(c)(8)(E).

Among other important benefits of an aggressive and well-managed forfeiture program is the
application of surplus revenues to law enforcement objectives, such as enhancing cooperation among
Federal, state, and local law enforcement agencies through the equitable sharing of Federal forfeiture
proceeds. Pursuant to 21 U.S.C. § Sec. 881(e)(1) and 19 U.S.C. § Sec. 1616(a), as made applicable by
21 U.S.C. § Sec. 881(d) and other statutes, the Attorney General has the authority to equitably transfer
forfeited property and cash to state and local agencies that directly participate in the law enforcement
effort leading to the seizure and forfeiture of property. All property and cash transferred to state and
local agencies and any income generated by this property and cash is to be used for law enforcement
purposes. As a result, state and local law enforcement programs and capabilities benefit significantly
from their cooperative efforts with Federal law enforcement agencies. Among the uses of equitable
shares, priority is given to supporting community policing activities, training, and law enforcement
operations calculated to result in further seizures and forfeitures.




                                                  -5-
Holding and Accounting for Seized and Forfeited Property
The USMS has primary responsibility for holding and maintaining real and tangible personal property
seized by participating agencies for disposition. Seized property can be either returned to the owner or
forfeited to the Government. Forfeited property is subsequently sold, placed into official use,
destroyed, or transferred to another agency. Seized and forfeited property is not considered inventory
held for resale in the normal course of business.

ANALYSIS OF FINANCIAL STATEMENTS
The following are brief explanations for the AFF/SADF financial results, position, and condition
conveyed in the principal financial statements. In FY 2013, ten major fraud cases resulted in large
case forfeiture income of $1,131.5 million compared to the five FY 2012 fraud cases that resulted in
large case forfeiture income of $3,311.9 million. The term large case is considered nonrecurring
forfeiture income greater than $25 million. The AFF/SADF financial results reflect the impact of the
large cases on forfeiture income and accrued liabilities in the fund balance with Treasury, accounts
payable, forfeiture revenue, and budgetary resources.

Consolidated Balance Sheets

Total assets, which present as of a specific time the amounts of future economic benefits owned or
managed by the AFF/SADF, increased in FY 2013 to $6,388.0 million from $5,970.3 million in
FY 2012, an increase of 7.0 percent. If seized assets, which are not yet owned by the government, are
not included, the adjusted assets of the Fund increased to $4,952.7 million in FY 2013 from $4,433.8
million in FY 2012, an increase of 11.7 percent. This is attributable to realizing a stable level of
forfeited assets in FY 2013 from FY 2012, thus indicating a strong current and future potential stream
of assets flowing into the AFF.

Total liabilities of the funds increased to $4,532.2 million in FY 2013 from $4,349.9 million in
FY 2012, an increase of 4.2 percent. The majority of the change, $250.6 million, in liabilities is due to
the increase in accounts payable with the public. The bulk of it is from an internet gambling case
known as PokerStars. This represents money that has been received, obligated, but not paid out of the
AFF. Current assets were more than current liabilities by a ratio of 1.60 to 1, which reflects an
increase of 0.02 from FY 2012. This ratio continues to indicate that the AFF will be able to meet its
obligations when due. In the calculation of the ratio of current assets to current liabilities, current
assets consist of total assets less SADF net investments, plus seized cash deposited, seized monetary
instruments (see Note 11), and less property, plant and equipment while current liabilities include the
total of liabilities covered by budgetary resources, except for total seized cash and monetary
instruments.

Consolidated Statements of Net Cost

Net cost of operations is related to DOJ’s Strategic Goal 2: Prevent Crime, Protect the Rights of the
American People, and Enforce Federal Law. Net cost of operations decreased to $1,775.4 million in
FY 2013 from $4,308.8 million in FY 2012, a decrease of 58.8 percent. The decrease is primarily
attributable to a liability associated with the $2,206.2 million Bernard Madoff asset that was
recognized in FY 2012. If that asset was not included in FY 2012, the adjusted net cost of the Fund
would decrease in FY 2013 by 15.6 percent. To the extent that financing sources do not cover net
costs, AFF’s carry forward balances are used to support program expenses. The carry forward
balances consist primarily of special case funds and monies for operational requirements.



                                                 -6-
Consolidated Statements of Changes in Net Position

Net position, an indicator of the Fund’s future capability to support ongoing operations, increased to
$1,855.8 million in FY 2013 from $1,620.4 million in FY 2012, an increase of 14.5 percent. The
Fund’s financing sources consist primarily of forfeited cash and other monetary assets and, secondly,
sale proceeds of forfeited property. Additional factors that consume resources and influence the AFF
net position to a lesser extent include the short-term interest rates that affect revenue from investments
in Government securities; the nature of seized non-cash properties that must be converted into cash,
and the transfers of properties placed into official use.

The Program invests cash balances from both the AFF and SADF in Government securities. Earnings
over a five-year period are presented in Figure 2. Investment interest earnings (i.e., nonexchange
revenue) realized for the fiscal year ended September 30, 2013, totaled $5.1 million, which is $1.8
million more than the $3.3 million in investment interest earnings for the fiscal year ended September
30, 2012. FY 2013 investment interest earned is $106 thousand more than the $5.0 million estimated
for FY 2013 in the Budget of the United States Government, Fiscal Year 2014--Appendix. The
increased earnings are due primarily to the increased net position of the AFF and SADF. Amounts
available for investment are difficult to predict because many factors influence the balance. For
example, one significant factor is the level of third party payments and equitable sharing distributions.
Uncertainties in the dollar amount and timing of these disbursements are difficult to predict.
Additional factors include the time to process equitable sharing requests and appeals of forfeiture
judgments.

Total financing sources realized by the Fund in FY 2013 were $2,011.3 million, a decrease of $2,157.4
million compared to $4,168.7 million realized in FY 2012. This is the eighth year since inception of
the Fund that it has exceeded $1 billion in deposits. In FY 2013 there were two large bank fraud cases
which yielded $551.0 million in forfeitures. Additionally, there were two internet gambling cases that
resulted in $300.0 million in forfeitures. If we remove the effect of the larger major cases producing
$1,131.5 million in forfeitures, the deposits still exceeded $875 million in FY 2013.

Combined Statements of Budgetary Resources

Total budgetary resources decreased to $2,708.3 million in FY 2013 from $5,290.4 million in
FY 2012, a 48.8 percent decrease. The net decrease is attributed to a decrease in deposits into the
AFF. Nonrecurring forfeiture income decreased to $1,131.5 million in FY 2013 from $3,311.9 million
in FY 2012. From FY 2013 activity, approximately $450.1 million of forfeiture income will be
disbursed to the victims of the fraud cases. The net outlays decreased to $1,435.1 million in FY 2013
from $2,670.7 million in FY 2012, a decrease of 46.3 percent.

The total obligations incurred in FY 2013 were $1,821.6 million, a decrease of $2,706.8 million
compared to $4,528.4 million incurred in FY 2012. The FY 2013 obligations decreased relative to
FY 2012 nonrecurring case activity in FY 2013.

The AFF’s unobligated balance was $886.7 million as of September 30, 2013, an increase of 16.4
percent as compared to $762 million as of September 30, 2012. The unobligated balance carried
forward is retained in the AFF to ensure the availability of sufficient monies in the upcoming fiscal
year for authorized purposes. These purposes include program operating expenses as well as pending
extraordinary distributions, pending innocent third party payments, uncommitted Super Surplus
authority, and other items. For example, as of September 30, 2013, pending extraordinary equitable




                                                  -7-
sharing distributions totaled an estimated $345.3 million, which is comprised of 579 assets with values
greater than $1 million.

                    Table 2. Source of Assets Forfeiture Fund Resources
                                     (Dollars in Thousands)


                       Source                            FY 2013         FY 2012      Change %
 Exchange Revenue                                            $12,201        $10,585        15.3%
 Budgetary Financing Sources
   Nonexchange Revenues                                       $5,106         $3,327        53.5%
   Donations and Forfeitures of Cash or Cash
 Equivalents                                              $1,826,480     $4,194,465      (56.5%)
 Other Financing Sources
    Donations and Forfeitures of Property                  $185,769        $120,245        35.3%
    Transfers-In/Out Without Reimbursement                  ($7,273)     ($149,908)      (95.1%)
    Imputed Financing from Costs Absorbed by
 Others                                                       $1,179           $536       120.0%
 Total                                                    $2,023,462     $4,179,250      (51.6%)


                    Table 3. How Assets Forfeiture Fund Resources are Spent
	
                                    (Dollars in Thousands)
	


                Strategic Goal (SG)                      FY 2013        FY 2012       Change %
 SG 2: Prevent Crime, Protect the Rights of the
 American People, and Enforce Federal Law
                                  Total Gross Cost       $1,787,551     $4,319,407
                       Less: Total Earned Revenue         ($12,201)      ($10,585)
                      Total Net Cost of Operations       $1,775,350     $4,308,822      (58.8%)


2013 Financial Highlights

As indicated in Table 3, in FY 2013 the AFF supported Strategic Goal 2 of the Attorney General’s
Strategic Plan for Fiscal Years 2012 – 2016, which includes Strategic Objective 2.2 - Prevent and
Intervene in Crimes Against Vulnerable Populations; Uphold the Rights of, and Improve Services to,
America’s Crime Victims.

Strategic Goal 2, Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law. Included are expenditures made for case, program, investigative, and other authorized
support costs incurred by AFP participants to operate the activities of the Program. The Fund’s
resources cover the costs of seizing, evaluating, inventorying, maintaining, protecting, advertising,
forfeiting, and disposing of property seized for forfeiture. These costs are necessary to support the
AFP and fluctuate in direct relation to the forfeiture activity levels of the investigative,




                                                -8-
prosecutive, litigative, and administrative participants of the Fund. The AFF has no costs associated
with counterterrorism or homeland security. For the fiscal year ended September 30, 2013, $1,775.4
million was expended (net of earned revenue) while $4,308.8 million was expended (net of earned
revenue) for the fiscal year ended September 30, 2012. Goal 2 net costs are presented in Figure 1;
financing sources are presented in Figure 2.


                                                      Figure 1. AFF Net Costs
                                                        (Dollars in Millions)
           $5 ,000

           $4 ,500      +-- - - - - - - - - - - - - - - -- - $4,309 -                                     - - - - ------1

           $4 ,000

           $3 ,500

           $3 ,000
 ~
.!!!       $2 ,500
"0
0
           $2 ,000      +-- - - - - - - - - - - - $1 ,664 - - -
           $ 1 ,500

           $1 ,000

             $500

                   $0
                                 2009                2010                  20 11            2012                2013


                                                                       Fiscal Year


                                            Figure 2. AFF Financing Sources
                                                   (Dollars in Millions)
                             $4 ,500


                             $4,000


                             $3 ,500


                             $ 3 ,000


               I"            $2 ,500
               -"!
               "0
               c             $2,000


                             $1 ,500


                             $1 ,000


                               $500


                                  $0



       IEITota l Net F inanc ing Sources   $1 .413          $1.546                 $1.737     $ 4 . 168         $2.011




                                                                     -9-
FY 2013 REPORT ON SELECTED RESULTS

PERFORMANCE INFORMATION

STRATEGIC GOAL 2: Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law.

100% of the AFF’s Net Costs support this Goal.

There are no applicable AFP performance measures. No performance measures are indicated because
the Fund’s program operations are performed by its participants. The Fund is considered to be an
enabling/administrative activity where resources are spread across agencies in accordance with full
program costing guidance.

ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
FMFIA Section 2 – Material Weaknesses

For FY 2013 and FY 2012, the independent auditors reported no material internal control weaknesses.
Management’s self assessments of the AFF/SADF internal controls over financial reporting,
conducted in FYs 2013 and 2012, as required by the Federal Managers’ Financial Integrity Act of
1982 (FMFIA) and OMB Circular No. A-123, Management’s Responsibility for Internal Control,
identified no internal control weaknesses Based on the results of the assessment for the year ended
September 30, 2013, the JMD management did not identify any Section 2 material weaknesses to
report that impact the AFP.

Internal Control Program

The Attorney General will provide the overall assurance statement on internal controls for the
Department. Component responsibilities will be determined by the Department’s Senior Assessment
Team.

AFMS is responsible for maintaining internal accounting and administrative controls that are adequate
to ensure that: (1) transactions are executed in accordance with applicable budgetary and financial
laws and other requirements, consistent with the purposes authorized, and are recorded in accordance
with Federal accounting standards; (2) assets are properly safeguarded to deter fraud, waste, and
abuse; and (3) management information is adequately supported. AFMS, along with other Fund
participants who use the Unified Financial Management System (UFMS), monitors financial
transactions on an on-going basis. AFMS also requires participants who enter Fund transactions into
their own financial system to provide reports of their financial transactions at least quarterly to update
the AFF obligation status.

For FY 2013, the Offices, Boards and Divisions’ (OBD) and AFP’s management participated in the
Departmental assessment of internal controls over financial reporting required by Appendix A of
OMB Circular No. A-123. Results of the testing of the controls over financial reporting in the AFP
will be consolidated with other Departmental components and reported in the overall Departmental
assurance statement.




                                                 -10-
FMFIA Section 4 – Material Nonconformances

For FY 2013 and FY 2012, the Fund reported no material nonconformances of its financial-mixed IT
system CATS. In FY 2013 and FY 2012 the DOJ did not identify any systems non-conformance
required to be reported under FMFIA Section 4. The Fund relies upon the Department’s JMD’s
UFMS managers for Section 4 compliance on the Department’s financial system of record.

Legal Compliance

For FY 2013 and FY 2012, the AFF/SADF was in compliance with the requirements and
responsibilities defined in applicable laws and administrative requirements, including FMFIA, the
Federal Financial Management Improvement Act of 1996 (FFMIA), and relevant OMB Circulars.

POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

Financing sources in FY 2013 totaled $2,011.3 million, which are $2,157.4 million less than the
$4,168.7 million reported in FY 2012. This is attributed to the $2,206.2 million Bernard Madoff asset
that was deposited into the AFF in FY 2012. It is difficult to project future levels of financing since
they are dependent upon many factors, including the development of new cases, uneven flow of cases
through the forfeiture process, level of appropriations that Federal law enforcement agencies receive,
level of personnel and monetary resources dedicated to the forfeiture program, international
cooperation in forfeiture and repatriation matters, Federal court decisions, and evolving forfeiture law.

In 2008, the DOJ began to replace the core financial management systems with one core commercial
off-the-shelf financial management system certified by the Financial Systems Integration Office. The
first pilot implementation of the UFMS occurred with AFMS. In 2011, the USMS Asset Forfeiture
Division (AFD) began implementing UFMS. In FY 2012, the AFMS began implementing the second
and final phase of UFMS. The AFMS and USMS AFD implementations of UFMS were completed in
October 2012.

LIMITATIONS OF THE FINANCIAL STATEMENTS
The financial statements have been prepared to report the financial position and results of operations
of the AFF/SADF, pursuant to the requirements of 31 U.S.C. § 3515(b).

While the statements have been prepared from the books and records of the AFF/SADF in accordance
with U.S. generally accepted accounting principles for Federal entities and the formats prescribed by
OMB, the statements are in addition to the financial reports used to monitor and control budgetary
resources, which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                                 -11-
This page intentionally left blank. 





                 -12-
     U.S. DEPARTMENT OF JUSTICE
	
Assets Forfeiture Fund and Seized Asset Deposit Fund


            Independent Auditors' Reports
	




                         -13-
This page intentionally left blank. 





                 -14-
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                      Independent Auditors’ Report on the Financial Statements


Inspector General
U.S. Department of Justice


Chief Financial Officer
Assets Forfeiture Fund and Seized Asset Deposit Fund
U.S. Department of Justice


We have audited the accompanying consolidated financial statements of the U.S. Department of Justice
Assets Forfeiture Fund (AFF) and Seized Asset Deposit Fund (SADF) which comprise the consolidated
balance sheets as of September 30, 2013 and 2012, and the related consolidated statements of net cost, and
changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and the related notes to the consolidated
financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of the
consolidated financial statements that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these consolidated financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audits to obtain reasonable assurance about whether the
consolidated financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
consolidated financial statements. The procedures selected depend on the auditors’ judgment, including the
assessment of the risks of material misstatement of the consolidated financial statements, whether due to
fraud or error. In making those risk assessments, the auditors consider internal control relevant to the
entity’s preparation and fair presentation of the consolidated financial statements in order to design audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the
consolidated financial statements.
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                        -15-
Independent Auditors’ Report on the Financial Statements
Page 2




We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.
Opinion on the Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Assets Forfeiture Fund and Seized Asset
Deposit Fund as of September 30, 2013 and 2012, and its net costs, changes in net position, and budgetary
resources for the years then ended in accordance with U.S. generally accepted accounting principles.

Emphasis of Matters

As discussed in Note 1.S. to the consolidated financial statements, the AFF/SADF adopted Statement of
Federal Financial Accounting Standards No. 43, Funds from Dedicated Collections: Amending Statement
of Federal Financial Accounting Standards No. 27, Identifying and Reporting Earmarked Funds, effective
October 1, 2012. The fiscal year 2012 consolidated financial statements have been adjusted for the
retrospective application of the new accounting guidance. Our opinion is not modified with respect to this
matter.

As discussed in Note 23 to the consolidated financial statements, the AFF/SADF has elected to change its
capitalization thresholds for real property, personal property, and internal use software, effective October 1,
2012. Our opinion is not modified with respect to this matter.

Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis section be presented to supplement the consolidated financial statements. Such information,
although not a part of the consolidated financial statements, is required by the Federal Accounting
Standards Advisory Board who considers it to be an essential part of financial reporting for placing the
consolidated financial statements in an appropriate operational, economic, or historical context. We have
applied certain limited procedures to the information in accordance with auditing standards generally
accepted in the United States of America, which consisted of inquiries of management about the methods
of preparing the information and comparing the information for consistency with management’s responses
to our inquiries, the consolidated financial statements, and other knowledge we obtained during our audits
of the consolidated financial statements. We do not express an opinion or provide any assurance on the
information because the limited procedures do not provide us with sufficient evidence to express an
opinion or provide any assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
as a whole. The Combined Schedule of Spending is presented for purposes of additional analysis and is not
a required part of the consolidated financial statements. Such information has not been subjected to the
auditing procedures applied in the audits of the consolidated financial statements, and accordingly, we do
not express an opinion or provide any assurance on it.




                                                 -16-
Independent Auditors’ Report on the Financial Statements
Page 3




Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our fiscal year 2013 report dated
December 5, 2013 on our consideration of the AFF/SADF’s internal control over financial reporting, and
our fiscal year 2013 report dated December 5, 2013 on our tests of its compliance with certain provisions of
laws, regulations, and contracts and other matters. The purpose of those reports is to describe the scope of
our testing of internal control over financial reporting and compliance and the results of that testing, and
not to provide an opinion on the internal control over financial reporting or on compliance. Those reports
are an integral part of an audit performed in accordance with Government Auditing Standards in
considering the AFF/SADF’s internal control over financial reporting and compliance.




December 5, 2013




                                               -17-
This page intentionally left blank. 





                 -18-
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




 Independent Auditors’ Report on Internal Control over Financial Reporting Based on an Audit of
       Financial Statements Performed in Accordance with Government Auditing Standards


Inspector General
U.S. Department of Justice


Chief Financial Officer
Assets Forfeiture Fund and Seized Asset Deposit Fund
U.S. Department of Justice


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the consolidated financial statements of
the U.S. Department of Justice Assets Forfeiture Fund (AFF) and Seized Asset Deposit Fund (SADF),
which comprise the consolidated balance sheets as of September 30, 2013 and 2012, and the related
consolidated statements of net cost, and changes in net position, and the combined statements of budgetary
resources (hereinafter referred to as “consolidated financial statements”) for the years then ended, and the
related notes to the consolidated financial statements, and have issued our report thereon dated
December 5, 2013. As discussed in Note 1.S. to the consolidated financial statements, the AFF/SADF
adopted Statement of Federal Financial Accounting Standards No. 43, Funds from Dedicated Collections:
Amending Statement of Federal Financial Accounting Standards No. 27, Identifying and Reporting
Earmarked Funds, effective October 1, 2012. The fiscal year 2012 consolidated financial statements have
been adjusted for the retrospective application of the new accounting guidance. Our opinion is not
modified with respect to this matter. Also, as discussed in Note 23 to the consolidated financial statements,
the AFF/SADF has elected to change its capitalization thresholds for real property, personal property, and
internal use software, effective October 1, 2012. Our opinion is not modified with respect to this matter.

Internal Control over Financial Reporting

In planning and performing our audit of the consolidated financial statements as of and for the year ended
September 30, 2013, we considered the AFF/SADF’s internal control over financial reporting (internal
control) to determine the audit procedures that are appropriate in the circumstances for the purpose of
expressing our opinion on the consolidated financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the AFF/SADF’s internal control. Accordingly, we do not express an
opinion on the effectiveness of the AFF/SADF’s internal control. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination

                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                        -19-
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 2



of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies, and therefore, material weaknesses or significant deficiencies may
exist that were not identified. Given these limitations, during our audit we did not identify any deficiencies
in internal control that we consider to be material weaknesses. However, we did identify a certain
deficiency in internal control, described in Exhibit I, that we consider to be a significant deficiency.

AFF/SADF’s Response to Finding

The AFF/SADF’s response to the significant deficiency identified in our audit and presented in Exhibit I
was not subjected to the auditing procedures applied in the audit of the AFF/SADF’s consolidated financial
statements and, accordingly, we express no opinion on the response.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results of
that testing, and not to provide an opinion on the effectiveness of the AFF/SADF’s internal control. This
report is an integral part of an audit performed in accordance with Government Auditing Standards in
considering the AFF/SADF’s internal control. Accordingly, this communication is not suitable for any
other purpose.




December 5, 2013




                                                  -20-
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 3

                                                                                        EXHIBIT I



                                    SIGNIFICANT DEFICIENCY

This section contains our discussion of the significant deficiency we identified in internal control over
financial reporting.

Improvements Needed in Analysis of Accounting Data, Revenue Recognition, and Review of Journal
Vouchers

During fiscal year 2013, the AFF/SADF fully implemented the Unified Financial Management System
(UFMS). As a result of the changes in work processes and additional requirements associated with the
implementation, certain errors occurred that were not analyzed timely and corrected. Additionally, there
were incidences of inadequate review prior to recording significant journal vouchers. Specifically, during
our test work, we identified the following exceptions:

Data Analysis

During the analysis of relationships between financial statement disclosures, KPMG noted a $155 million
reclassification error in the September 30, 2013 balances between the amounts disclosed in the Donations
and Forfeitures of Property, and the Donations and Forfeitures of Cash and Cash Equivalents line items on
the Consolidated Statement of Changes in Net Position (SCNP). The AFF/SADF completed a system
conversion from the FMIS2 and STARS financial systems to UFMS at the beginning of fiscal year 2013.
                                                      D AFT




When recording transactions in UFMS, certain types of cash transactions were being recorded with a
Revenue Source Code and Document Type that were causing the cash forfeitures to be recorded as
Donations and Forfeitures of Property, rather than Donations and Forfeitures of Cash and Cash
Equivalents. While coding errors such as this might be expected as users familiarize themselves with a
new financial system, analytical review and analysis procedures (e.g., comparison of current year to prior
year financial statement account balances, interrelated disclosures, and the investigation of significant
fluctuations) that would be expected to detect an error of this magnitude were either not effectively
designed and implemented or not performed.

Revenue Recognition

During our internal control and substantive test work procedures over revenue generation, we noted
revenue recognition errors that resulted in known and likely overstatements of $8.6 million and $28.2
million, respectively, in the Donations and Forfeitures of Cash and Cash Equivalents line item on the
SCNP. Field personnel did not accurately record transactions in UFMS based on supporting
documentation due to not understanding or incorrectly applying appropriate procedures for recording cash
receipts in UFMS.




                                               -21-
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 4

                                                                                         EXHIBIT I

Journal Vouchers

We noted the following errors related to Audited Financial Statements (AFS) journal entries:
June 30, 2013
•	 The preparer of AFS journal entries also approved the AFS log, evidencing inadequate segregation of
   duties in the process for preparing, recording, and reviewing/approving journal entries.
•	 Documentation supporting that an AFS journal entry met the following criteria could not be obtained
   for approximately $14.7 million of transactions:
    -	 accurately reflected underlying events and transactions,
    -	 was recorded in the correct accounting period and in correct amounts,
    -	 was recorded in the correct general ledger accounts or has been included in the appropriate
         financial statement captions, and
    -	   was consistent with the entity’s accounting policies.

September 30, 2013
•	 An AFS entry, made as an adjustment to reverse previously-recorded revenue of $25 million, was made
   only to proprietary accounts without an entry for the related budgetary impact. The entry was also
   entered into the wrong proprietary revenue account, requiring a correcting entry of $24.3 million.
•	 An AFS entry, made to include revenue in the financial statements based on information in the
   AFF/SADF’s asset tracking system, incorrectly credited only the Forfeiture Revenue – Cash and Cash
   Equivalents account, instead of being split into the Forfeiture Revenue – Property account, resulting in
   a misclassification of $1 million.
These errors in the recording of AFS journal entries, which are made as part of the financial statement
preparation process, were not detected and corrected through reviews performed by the Asset Forfeiture
Management Staff and the Justice Management Division Finance Staff.
OMB Circular No. A-136, Financial Reporting Requirements, requires that donations and forfeitures of
cash and cash equivalents be presented as a budgetary resource in the Statement of Changes in Net
Position. The line “includes voluntary gifts and involuntary forfeitures of resources to the Federal
Government by non-Federal entities. Donations of financial resources may be in the form of cash or
securities. This amount also includes the forfeiture of seized cash and cash equivalents.”

The presentation for non-exchange revenue from donations and forfeitures of cash and cash equivalents is
different from the presentation for non-exchange revenue from donations and forfeitures of property, which
is presented as an Other Financing Source in the Statement of Changes in Net Position. This line “includes
voluntary gifts and involuntary forfeitures of resources to the Federal Government by non-Federal entities.
These resources may be in the form of land or buildings. The amount of revenue arising from
donations/involuntary forfeitures of non-financial resources will be recognized in accordance with criteria
in SFFAS No.6.”




                                                 -22-
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 5

                                                                                            EXHIBIT I

The U.S. Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government defines internal control as an integral component of an organization’s management that
provides reasonable assurance that certain objectives will be achieved. Included among the objectives of
internal control described in the GAO standards is the reliability of financial reporting, including reports on
budget execution, financial statement, and other reports for internal and external use.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, states that “Control
activities include policies, procedures and mechanisms in place to help ensure that agency objectives are
met. Several examples include: proper segregation of duties (separate personnel with authority to authorize
a transaction, process the transaction, and review the transaction); physical controls over assets (limited
access to inventories or equipment); proper authorization; and appropriate documentation and access to that
documentation.”

RECOMMENDATIONS:

We recommend that the Asset Forfeiture Management Staff:

1.	 Review the posting logic for forfeiture revenue document types and the business process instructions
    regarding the use of each document type to ensure that the transactions result in accurate presentation
    in the financial statements. (New)

    Management Response:

   The Justice Management Division (JMD) Asset Forfeiture Management Staff (AFMS) and Finance
   Staff concur with this finding and recommendation. The AFMS and Finance Staff will review the
   posting logic for forfeiture revenue document types and the business process instructions regarding the
   use of each document type to ensure that the transactions result in accurate presentation in the financial
   statements.


2.	 Implement analytical review and analysis procedures, including the comparison of current year to prior
    year financial statement account balances, interrelated disclosures, and the investigation of significant
    fluctuations, as part of the financial statement preparation and review process. (New)

    Management Response:

    The JMD AFMS and Finance Staff concur with this finding and recommendation. The AFMS will
    work concurrently with Finance Staff to develop and implement analytical review procedures over the
    quarterly financial statements to ensure that anomalies are investigated and any corrections needed are
    implemented timely.




                                                 -23-
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 6

                                                                                        EXHIBIT I

3.	 Reinforce procedures and provide additional training to entity personnel for accurately recording cash
    receipts in UFMS. (New)

    Management Response:

    The JMD AFMS and Finance Staff concur with this finding and recommendation. The AFMS and
    Finance Staff will reinforce revenue recognition procedures and provide training to UFMS users,
    including the U.S. Marshals Service (USMS), to clarify the procedures and rules for proper revenue
    recognition. The AFMS and Finance Staff will also work with the USMS to implement additional
    controls for validation and reconciliation of cash receipt transactions.


4.	 Implement more effective procedures over review of the Annual Financial Statement journal entries to
    supplement existing higher level management reviews over the Trial Balance and financial statements.
    (New)

    Management Response:

    The JMD AFMS and Finance Staff concur with this finding and recommendation. The AFMS and
    Finance Staff will develop a detailed process for reviewing the journal vouchers, trial balances and
    financial statements and will document those procedures for easy reference and review support.




                                               -24-
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




  Independent Auditors’ Report on Compliance and Other Matters Based on an Audit of Financial
            Statements Performed in Accordance with Government Auditing Standards


Inspector General
U.S. Department of Justice


Chief Financial Officer
Assets Forfeiture Fund and Seized Asset Deposit Fund
U.S. Department of Justice


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the consolidated financial statements of
the U.S. Department of Justice Assets Forfeiture Fund (AFF) and Seized Asset Deposit Fund (SADF),
which comprise the consolidated balance sheets as of September 30, 2013 and 2012, and the related
consolidated statements of net cost, and changes in net position, and the combined statements of budgetary
resources (hereinafter referred to as “consolidated financial statements”) for the years then ended and the
related notes to the consolidated financial statements, and have issued our report thereon dated
December 5, 2013. As discussed in Note 1.S. to the consolidated financial statements, the AFF/SADF
adopted Statement of Federal Financial Accounting Standards No. 43, Funds from Dedicated Collections:
Amending Statement of Federal Financial Accounting Standards No. 27, Identifying and Reporting
Earmarked Funds, effective October 1, 2012. The fiscal year 2012 consolidated financial statements have
been adjusted for the retrospective application of the new accounting guidance. Our opinion is not
modified with respect to this matter. Also, as discussed in Note 23 to the consolidated financial statements,
the AFF/SADF has elected to change its capitalization thresholds for real property, personal property, and
internal use software, effective October 1, 2012. Our opinion is not modified with respect to this matter.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the AFF/SADF’s consolidated financial
statements are free from material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.
The results of our tests of compliance disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin No. 14-02.

We also performed tests of its compliance with certain provisions referred to in Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA). Providing an opinion on compliance
with FFMIA was not an objective of our audit, and accordingly, we do not express such an opinion. The

                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                        -25-
Independent Auditors’ Report on Compliance and Other Matters
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 2



results of our tests of FFMIA disclosed no instances in which the AFF/SADF’s financial management
systems did not substantially comply with the (1) federal financial management system requirements,
(2) applicable federal accounting standards, and (3) application of the United States Government Standard
General Ledger at the transaction level.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of that
testing, and not to provide an opinion on the AFF/SADF’s compliance. This report is an integral part of an
audit performed in accordance with Government Auditing Standards in considering the AFF/SADF’s
compliance. Accordingly, this communication is not suitable for any other purpose.




December 5, 2013




                                                 -26-
     U.S. DEPARTMENT OF JUSTICE
	
Assets Forfeiture Fund and Seized Asset Deposit Fund
	

    Principal Financial Statements and Related Notes

      See Independent Auditors' Report on Financial Statements
	




                               -27-
This page intentionally left blank. 





                 -28-
                                             U.S. Department of Justice

                               Assets Forfeiture Fund and Seized Asset Deposit Fund

                                            Consolidated Balance Sheets

                                        As of September 30, 2013 and 2012


Dollars in Thousands                                                                                              2013            2012

ASSETS (Note 2)

    Intragovernmental
         Fund Balance with U.S. Treasury (Note 3)                                                      $       110,344   $      78,375
         Investments, Net (Note 5)                                                                           6,068,165       5,631,124
         Accounts Receivable (Note 6)                                                                            3,322           6,035
         Other Assets (Note 9)                                                                                       -           2,339
    Total Intragovernmental                                                                                  6,181,831       5,717,873
   Cash and Monetary Assets (Note 4)                                                                            64,219         106,166
   Forfeited Property, Net (Note 7)                                                                            141,354         145,111
   General Property, Plant and Equipment, Net (Note 8)                                                             603           1,150
Total Assets                                                                                           $     6,388,007   $   5,970,300

LIABILITIES (Note 10)
    Intragovernmental
         Accounts Payable                                                                              $      105,395    $     71,352
         Other Liabilities (Note 12)                                                                              146              39
    Total Intragovernmental                                                                                   105,541          71,391
   Accounts Payable                                                                                          2,847,058       2,596,491
   Accrued Payroll and Benefits                                                                                  1,278             151
   Accrued Annual and Compensatory Leave Liabilities                                                             1,726             246
   Deferred Revenue                                                                                            141,354         145,111
   Seized Cash and Monetary Instruments (Note 11)                                                            1,435,283       1,536,523
Total Liabilities                                                                                      $     4,532,240   $   4,349,913

Contingent Liabilities (Note 13)

NET POSITION
    Cumulative Results of Operations - Funds from Dedicated Collections (Note 14)                      $     1,855,767   $   1,620,387
Total Net Position                                                                                     $     1,855,767   $   1,620,387
Total Liabilities and Net Position                                                                     $     6,388,007   $   5,970,300


                                 The accompanying notes are an integral part of these financial statements




                                                                   -29-
                                                       U.S. Department of Justice

                                        Assets Forfeiture Fund and Seized Asset Deposit Fund

                                                 Consolidated Statements of Net Cost

                                       For the Fiscal Years Ended September 30, 2013 and 2012


Dollars in Thousands

                                        Gross Costs	                                Less: Earned Revenues                       Net Cost


                          Intra-           With the                          Intra-              With the                     of Operations
            FY         governmental         Public          Total         governmental            Public            Total        (Note 15)


Goal 2	    2013        $     501,418     $ 1,286,133    $ 1,787,551       $        12,201    $              -   $    12,201   $ 1,775,350

           2012        $     382,840     $ 3,936,567    $ 4,319,407       $        10,585    $              -   $    10,585   $ 4,308,822



Total	     2013        $     501,418     $ 1,286,133    $ 1,787,551       $        12,201    $              -   $    12,201   $ 1,775,350


           2012        $     382,840     $ 3,936,567    $ 4,319,407       $        10,585    $              -   $    10,585   $ 4,308,822


Goal 2: Prevent Crime, Protect The Rights of the American People, and Enforce Federal Law




                               The accompanying notes are an integral part of these financial statements.




                                                                        -30-
                                            U.S. Department of Justice

                              Assets Forfeiture Fund and Seized Asset Deposit Fund

                               Consolidated Statements of Changes in Net Position

                             For the Fiscal Years Ended September 30, 2013 and 2012


Dollars in Thousands                                                                     2013              2012

                                                                                     Funds from       Funds from
                                                                                      Dedicated        Dedicated
                                                                                     Collections      Collections
Cumulative Results of Operations
  Beginning Balances                                                                $    1,620,387    $   1,760,544
  Adjustment
    Change in Accounting Principle (Note 23)                                                  (531)               -
  Beginning Balances, as Adjusted                                                        1,619,856        1,760,544

  Budgetary Financing Sources
    Nonexchange Revenues (Note 19)                                                           5,106            3,327
    Donations and Forfeitures of Cash and Cash Equivalents (Note 20)                     1,826,480        4,194,465

  Other Financing Sources
    Donations and Forfeitures of Property (Note 20)                                        185,769          120,245
    Transfers-In/Out Without Reimbursement (Note 18)                                        (7,273)        (149,908)
    Imputed Financing from Costs Absorbed by Others (Note 16)                                1,179              536
  Total Financing Sources                                                                2,011,261        4,168,665

  Net Cost of Operations                                                                (1,775,350)       (4,308,822)

  Net Change                                                                               235,911         (140,157)

  Cumulative Results of Operations                                                  $    1,855,767    $   1,620,387

Net Position                                                                        $    1,855,767    $   1,620,387


                       The accompanying notes are an integral part of these financial statements.




                                                             -31-
                                                  U.S. Department of Justice

                                    Assets Forfeiture Fund and Seized Asset Deposit Fund

                                        Combined Statements of Budgetary Resources

                                   For the Fiscal Years Ended September 30, 2013 and 2012


Dollars in Thousands                                                                                                    2013             2012

Budgetary Resources:
     Unobligated Balance, Brought Forward, October 1                                                 $               762,009    $   1,088,719

     Recoveries of Prior Year Unpaid Obligations                                                                      76,720           84,186
     Unobligated Balance from Prior Year Budget Authority, Net                                                       838,729        1,172,905
     Appropriations (discretionary and mandatory)                                                                  1,849,037        4,100,446
     Spending Authority from Offsetting Collections (discretionary and mandatory)                                     20,595           17,027
Total Budgetary Resources                                                                            $             2,708,361    $   5,290,378

Status of Budgetary Resources:
     Obligations Incurred (Note 17)                                                                  $             1,821,623    $   4,528,369
     Unobligated Balance, End of Period:
           Apportioned                                                                                               639,271          639,541
           Unapportioned                                                                                             247,467          122,468
     Total Unobligated Balance - End of Period                                                                       886,738          762,009
Total Status of Budgetary Resources:                                                                 $             2,708,361    $   5,290,378

Change in Obligated Balance:
     Unpaid Obligations:
           Unpaid Obligations, Brought Forward October 1                                             $              2,849,380 $      1,092,300
           Obligations Incurred                                                                                     1,821,623        4,528,369
           Outlays, Gross (-)                                                                                      (1,462,508)      (2,687,103)
           Recoveries of prior Year Unpaid Obligations (-)                                                            (76,720)         (84,186)
           Unpaid Obligations, End of Period                                                                        3,131,775        2,849,380
     Uncollected Payments:
           Uncollected Payments from Federal Sources, Brought Forward, October 1 (-)                                  (8,889)           (4,889)
           Change in Uncollected Customer Payments from Federal Sources                                                1,712            (4,000)
           Uncollected Customer Payments from Federal Sources                                                         (7,177)           (8,889)
     Memorandum (non-add) Entries:
         Obligated Balance, Start of Period                                                          $             2,840,491    $   1,087,411
           Obligated Balance, End of Period                                                          $             3,124,598    $   2,840,491

Budgetary Authority and Outlays, Net:
     Budgetary Authority, Gross (discretionary and mandatory)                                        $             1,869,632    $   4,117,473
     Less: Actual Offsetting Collections (discretionary and mandatory)                                                22,306           13,027
     Change in Uncollected Customer Payments from Federal Sources                                                      1,712           (4,000)
           (discretionary and mandatory)
     Budget Authority, Net (discretionary and mandatory)                                             $             1,849,038    $   4,100,446
     Outlays, Gross (discretionary and mandatory)                                                    $             1,462,508    $   2,687,103
     Less: Actual Offsetting Collections (discretionary and mandatory)                                                22,306           13,027
     Outlays, Net (discretionary and mandatory)                                                                    1,440,202        2,674,076
     Less: Distributed Offsetting Receipts                                                                             5,106            3,327
     Agency Outlays, Net (discretionary and mandatory)                                               $             1,435,096    $   2,670,749

                                      The accompanying notes are an integral part of these financial statements.




                                                                          -32-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 1. Summary of Significant Accounting Policies

A.     Reporting Entity

The Assets Forfeiture Fund (AFF or Fund) and Seized Asset Deposit Fund (SADF) together
comprise a single financial reporting entity of the Department of Justice (DOJ or Department),
which includes the specified funds, property seized for forfeiture, and the transactions and
program activities of DOJ forfeiture program components and other participating agencies as
described more fully herein.

The primary mission of the DOJ Asset Forfeiture Program (AFP) is to maximize the
effectiveness of forfeiture as a deterrent to crime. This is accomplished by means of depriving
drug traffickers, racketeers, and other criminal syndicates of their ill-gotten proceeds and
instrumentalities of their trade. Components responsible for administration and financial
management of the AFP are charged with lawfully, effectively, and efficiently supporting law
enforcement authorities in the application of specified forfeiture statutes.

The AFF was created by the Comprehensive Crime Control Act of 1984 to be a repository of
proceeds from forfeitures under any law enforced and administered by the DOJ. AFF and SADF
are managed by the Asset Forfeiture Management Staff (AFMS), Justice Management Division
(JMD). The SADF was created administratively by the Department to ensure control over monies
seized by agencies participating in the Department’s AFP.


B.     Basis of Presentation

These financial statements have been prepared from the books and records of the AFF/SADF in
accordance with United States generally accepted accounting principles issued by the Federal
Accounting Standards Advisory Board (FASAB) and presentation guidelines in the Office of
Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements. These
financial statements are different from the financial reports prepared pursuant to OMB directives,
which are used to monitor and control the use of the AFF/SADF budgetary resources. To ensure
that the Department financial statements are meaningful at the entity level and to enhance
reporting consistency within the department, Inventory and Related Property, Other Assets and
Other Liabilities as defined by OMB Circular No. A-136 have been disaggregated on the
Consolidated Balance Sheets. These include Forfeited Property, Net; Advances and Prepayments;
Accrued Payroll and Benefits; Accrued Annual and Compensatory Leave Liabilities; Deferred
Revenue and Seized Cash and Monetary Instruments.




                    These notes are an integral part of the financial statements.


                                                     -33-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)



C.     Basis of Consolidation

The consolidated/combined financial statements include the accounts of the AFF/SADF. All
significant proprietary intra-entity transactions and balances have been eliminated in
consolidation. The Statements of Budgetary Resources are combined statements for FYs 2013
and 2012, and as such, intra-entity transactions have not been eliminated.


D.     Basis of Accounting

Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual
basis, revenues are recorded when earned and expenses are recorded when incurred, regardless of
when cash is exchanged. Under the budgetary basis, however, funds availability is recorded
based upon legal considerations and constraints. As a result, certain line items on the proprietary
financial statements may not equal similar line items on the budgetary financial statements.

E.     Non-Entity Assets

Non-entity assets consist of seized cash and investments of seized cash that are not available to
fund the operations of the AFP.

F.     Fund Balance with U.S. Treasury and Cash

Generally, the U.S. Treasury processes cash receipts and disbursements for the AFF and SADF.
The funds in the AFF, a special fund receipt account, are entity assets and are used to finance the
operations of the AFP. Seized cash is deposited and accounted for in the SADF, a deposit fund,
until a determination has been made as to its disposition. If title passes to the U.S. Government,
the forfeited cash is then transferred from the SADF to the AFF. The cash balance in the SADF
is a non-entity asset and is not available to finance the AFP activities, but the AFP does have
statutory authority for the investment of idle cash.




                    These notes are an integral part of the financial statements.


                                                     -34-
                                                 FY 2013 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


G.     Investments

The AFF and SADF are authorized by 28 U.S.C. § 524(c) to invest idle funds in excess of their
immediate needs in U.S. Treasury Securities. Investments are short-term, non-marketable
market-based Federal Debt securities issued by the Bureau of Public Debt (BPD) and purchased
exclusively through the BPD’s Division of Federal Investments. Investments are reported on the
Consolidated Balance Sheet at their net value, the face value plus or minus any unamortized
premium or discount. Premiums and discounts are amortized over the life of the Treasury
security. Amortization is based on the straight-line method over the term of the securities. AFF
and SADF intend to hold investments to maturity. Accordingly, no provision is made for
unrealized gains or losses on these securities.

H.     Accounts Receivable

Accounts receivable consist of amounts due from the Treasury Executive Office for Asset
Forfeiture for goods or services provided by the AFP. Receivables arising from services
provided to the Treasury Executive Office for Asset Forfeiture are considered fully collectible.
Therefore, no allowance for uncollectible accounts is established.

I.     General Property, Plant and Equipment

The General Services Administration (GSA), which charges rent equivalent to the commercial
rates for similar properties, provides a building on a reimbursable basis in which AFP operates.
The Department does not recognize depreciation on buildings owned by the GSA.

Property, plant and equipment consist of leasehold improvements and enhancements to the
Consolidated Asset Tracking System (CATS), which meet the SFFAS No. 10, Accounting for
Internal Use Software, definition of “internal use software.” Leasehold improvements are
capitalized when the initial cost of acquiring the asset is $250 or more, and the asset has an
estimated useful life of two or more years. Internal use software is capitalized when
developmental phase costs or enhancement costs are $5,000 or more and the asset has an
estimated useful life of two or more years. Internal use software purchases with an acquisition
cost of less than $5,000 are expensed when purchased. Depreciation is calculated using the
straight-line method over the useful lives of the assets.




                     These notes are an integral part of the financial statements.


                                                      -35-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


I.   General Property, Plant and Equipment (Continued)

DOJ Financial Management Policy Memorandum (FMPM) 13-12, Capitalization of General
Property, Plant, and Equipment and Internal Use Software, was issued in FY 2013 with an
effective date for reporting periods ending after September 30, 2014. Early implementation of
the policy’s increased capitalized thresholds was encouraged beginning October 1, 2012. For
financial statement purposes, the primary changes relate to the capitalization thresholds for real
property, including leasehold improvements; personal property; and internal use software which
results in a decrease to the overall PP&E balance.

Below are the capitalization thresholds:
                                                                          FY 2012
               Type of Property         FY 2013 Thresholds               Thresholds
            Real Property                             $250                         $100
            Personal Property                          $50                          $25
             Aircraft                                 $100                         $100
            Internal Use Software                   $5,000                         $500

Except for land, all general PP&E will be capitalized when the cost of acquiring or improving the
property meets the threshold noted in the table above and has a useful life of two or more years.
Land is capitalized regardless of the acquisition cost. Except for land, all general PP&E is
depreciated or amortized, based on historical cost, using the straight-line method over the
estimated useful life of the asset. Land is never depreciated.

J.     Advances and Prepayments

Advances and prepayments include advances to other Federal agencies for any law enforcement,
litigative/prosecutive, and correctional activity, or any other authorized purpose of the DOJ and
travel advances issued to Federal employees for official travel. Travel advances are limited to
meals and incidental expenses expected to be incurred by employees during official travel.
Payments in advance of the receipt of goods and services are recorded as prepaid charges at the
time of payment and are recognized as expenses when the goods and services are received.
Advances and prepayments involving other Federal agencies are classified as Other Assets on the
balance sheet.




                    These notes are an integral part of the financial statements.


                                                     -36-
                                                 FY 2013 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


K.     Forfeited and Seized Property

Property is seized in consequence of a violation of public law. Seized property can include
monetary instruments, real property, and tangible personal property of others in the actual or
constructive possession of the custodial agency. The value of seized property is its estimated fair
market value at the time it was seized. Most seized property is held by the USMS from the point
of seizure until its disposition. In certain cases, the investigative agency will keep seized
property in its custody if the intention is to place the property into official use after forfeiture or
to use the property as evidence in a court proceeding.

Forfeited property is property for which title has passed to the U.S. Government. This property is
recorded at the estimated fair market value at the time of forfeiture and is not adjusted for any
subsequent increases and decreases in estimated fair market value. The value of the property is
reduced by estimated liens of record. The amount ultimately realized from the forfeiture and
disposition of these assets could differ from the amounts initially reported. The proceeds from
the sale of forfeited property are deposited in the AFF.

L.     Liabilities

AFF accounts payable represent liabilities to both Federal and non-Federal entities. Deferred
revenue represents the value of forfeited property not yet sold or placed into official use. Seized
cash and monetary instruments represent liabilities for SADF amounts on deposit pending
disposition.

M.     Contingencies and Commitments

The AFF is party to various administrative proceedings, legal actions and claims. The balance
sheet includes an estimated liability for those legal actions where management and the Chief
Counsel consider adverse decisions “probable” and amounts are reasonably estimable. Legal
actions where management and the Chief Counsel consider adverse decisions “probable” or
“reasonably possible” and the amounts are reasonably estimable are disclosed in Note 13,
Contingencies and Commitments. However, there are cases where amounts have not been
accrued or disclosed because the amounts of the potential loss cannot be estimated or the
likelihood of an unfavorable outcome is considered “remote”.




                     These notes are an integral part of the financial statements.


                                                      -37-
                                                 FY 2013 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


N.     Annual, Sick, and Other Leave

Annual leave and compensatory leave are expensed as earned with an offsetting liability.
Liabilities are reduced as leave is taken. At the end of each fiscal quarter, the balance in the
accrued annual leave liability account is adjusted to reflect valuation at current pay rates. To the
extent current-year or prior-year appropriations are not available to fund annual and
compensatory leave that is earned but not taken, funding will be obtained from future financing
sources. Sick leave and other types of non-vested leave are expensed as taken.

O.     Interest on Late Payments

Pursuant to the Prompt Payment Act, 31 U.S.C. § 3901-3907, Federal agencies must pay interest
on payments for goods or services made to concerns after the due date. The due date is generally
30 days after receipt of a proper invoice or acceptance of the goods or services, whichever is
later.

P.     Retirement Plans

With few exceptions, employees of the Department are covered by one of the following
retirement programs:
       1.	 Employees hired before January 1, 1984, are covered by the Civil Service Retirement
           System (CSRS). For employees covered by CSRS, the AFF contributes 7% of the
           employees’ gross pay for regular and 7.5% for law enforcement officers’ retirement.
       2.	 Employees hired between January 1, 1984 and December 31, 2012, are covered by the
           Federal Employees Retirement System (FERS). For employees covered by FERS, the
           AFF contributes 11.9% of the employees’ gross pay for regular and 26.3% for law
           enforcement officers’ retirement.
       3.	 Employees hired after January 1, 2013, are covered by the Federal Employees
           Retirement System-Revised Annuity Employees (FERS-RAE) System. For
           employees covered by FERS-RAE, the AFF contributes 9.6% of the employees’ gross
           pay for regular and 24.0% for law enforcement officers’ retirement.




                     These notes are an integral part of the financial statements.


                                                      -38-
                                                 FY 2013 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


Q.     Intragovernmental Activity

Intragovernmental costs and exchange revenue represent transactions made between two
reporting entities within the Federal government. Costs and earned revenues with the public
represent exchange transactions made between the reporting entity and a non-Federal entity. The
classification of revenue or cost as “intragovernmental” or “with the public” is defined on a
transaction-by-transaction basis. The purpose of this classification is to enable the Federal
government to prepare consolidated financial statements, not to match public and
intragovernmental revenue with costs incurred to produce public and intragovernmental revenue.

R.     Revenues and Other Financing Sources

The funds in the AFF are derived primarily from financing sources and are presented on the
Consolidated Statements of Changes in Net Position as both Budgetary and Other Financing
Sources. Financing sources consist of (1) interest earned on investments (i.e., nonexchange
revenues) and (2) donations and forfeitures, which include forfeited cash, proceeds from the sale
of forfeited property (or conversion of deferred revenue to realized revenue through sale), receipt
of payments in lieu of property forfeiture, recovery of asset management expenses, and financing
sources from judgments. These financing sources are recognized when cash is forfeited, forfeited
property is sold, or forfeited property is placed into official use or transferred to another Federal
agency. The financing sources from legal judgments are not recognized until the judgment has
been enforced. Deferred revenue is recorded when the property is forfeited. When the property is
sold or otherwise disposed, the deferred revenue becomes earned and a financing source is
recognized. The AFF recognizes exchange revenue when the United States Attorneys Offices
provide services in judicial forfeiture cases brought by agencies participating in the U.S.
Department of the Treasury (Treasury), Treasury Forfeiture Fund (TFF). The AFF recognizes
exchange revenue on a reimbursement basis and the revenue is presented on the Consolidated
Statements of Net Cost as earned revenue. In accordance with 28 U.S.C. § 524 and AFMS
Memorandums of Understanding, donations and forfeitures available for use by certain Federal
agencies are treated as returns of financing sources when disbursed. The funds in the SADF are
held in trust until a determination is made as to their disposition. These funds include seized
cash, proceeds from preforfeiture sales of seized property, and income from property under
seizure. No revenue recognition is given to cash deposited in the SADF.




                     These notes are an integral part of the financial statements.


                                                      -39-
                                                 FY 2013 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


S.     Funds from Dedicated Collections

SFFAS No. 27 as amended defines ‘funds from dedicated collections’ as being financed by
specifically identified revenues, provided to the government by non-federal sources, often
supplemented by other financing sources, which remain available over time. These specifically
identified revenues and other financing sources are required by statute to be used for designated
activities, benefits, or purposes, and must be accounted for separately from the Government’s
general revenues. The three required criteria for a fund from dedicated collections are:
           1.	 A statute committing the Federal government to use specifically identified revenues
               and/or other financing sources that are originally provided to the federal government
               by a non-federal source only for designated activities, benefits or purposes;
           2.	 Explicit authority for the funds to retain revenues and/or other financing sources not
               used in the current period for future use to finance the designated activities, benefits
               or purposes; and
           3.	 A requirement to account for and report on the receipt, use, and retention of the
               revenues and/or other financing sources that distinguishes the fund from the federal
               government’s general revenues.
The AFF meets the definition of funds from dedicated collections, but the SADF does not meet
the definition of a funds from dedicated collections.

T.     Tax Exempt Status

As an agency of the Federal Government, AFF/SADF is exempt from all income taxes imposed
by any governing body whether it be a Federal, state, commonwealth, local, or foreign
government.

U.     Use of Estimates

The preparation of financial statements requires management to make certain estimates and
assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
revenues and expenses during the reporting period. Actual results could differ from those
estimates.




                     These notes are an integral part of the financial statements.


                                                      -40-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)



V.     Reclassifications

The FY 2012 financial statements were reclassified to conform to the FY 2013 Departmental and
OMB financial statement presentation requirements. Changes to the presentation of the
Combined Statements of Budgetary Resources were made, in accordance with guidance provided
in OMB Circular A-136, Financial Reporting Requirements and as such, activity and balances
reported on the FY 2012 Combined Statement of Budgetary Resources have been reclassified to
conform to the presentation in the current year. Certain other prior year amounts have also been
reclassified to conform with the current year presentation. The reclassifications had no material
effect on total assets, liabilities, net position, change in net position or budgetary resources as
previously reported.

W.    Subsequent Events

Subsequent events and transactions occurring after September 30, 2013 through the date of the
auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
statements. The date of the auditors’ opinion also represents the date that the financial statements
were available to be issued.




                    These notes are an integral part of the financial statements.


                                                     -41-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 2. Non-Entity Assets

Non-entity assets are assets held by the AFP that are not available for use by the AFP.

As of September 30, 2013 and 2012
                                                                            2013                   2012
Intragovernmental
    Investments, Net (Note 5)                                       $       1,371,064      $       1,430,357
With the Public
    Cash and Monetary Assets (Note 4)                                          64,219                106,166
       Total Non-Entity Assets                                              1,435,283              1,536,523
       Total Entity Assets                                                  4,952,724              4,433,777
       Total Assets                                                 $       6,388,007      $       5,970,300

Note 3. Fund Balance with U.S. Treasury

As of September 30, 2013 and 2012
                                                                             2013                    2012
 Fund Balances
    Special Funds                                                       $       110,344        $          78,375

 Status of Fund Balances
    Unobligated Balance - Available                                     $       639,271        $        639,541
    Unobligated Balance - Unavailable                                           247,467                 122,468
    Obligated Balance not yet Disbursed                                       3,124,598               2,840,491
    Other Funds (With)/Without Budgetary Resources                           (3,900,992)             (3,524,125)
        Total Status of Fund Balances                                   $       110,344        $         78,375

Other Funds (With)/Without Budgetary Resources primarily represent the AFF investments in
short-term securities less amounts Temporarily not Available Pursuant to Public Law.




                    These notes are an integral part of the financial statements.


                                                     -42-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 4. Cash and Monetary Assets

Cash consists of seized cash deposited in the SADF. Monetary assets include seized cash in DOJ
custody but not yet deposited in the SADF.

As of September 30, 2013 and 2012
                                                            2013                    2012
Cash
   Seized Cash Deposited                              $        40,063       $         82,166

Monetary Assets
   Seized Monetary Instruments                                 24,156                 24,000
      Total Cash and Monetary Assets                  $        64,219       $        106,166


Note 5. Investments, Net

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with AFF. The cash receipts collected from the public for the AFF, a dedicated
collections fund, are deposited in the U.S. Treasury, which uses the cash for general Government
purposes. Treasury securities are issued to the AFF as evidence of its receipts. Treasury
securities are an asset to the AFF and a liability to the U.S. Treasury. Because the AFF and the
U.S. Treasury are both parts of the Federal Government, these assets and liabilities offset each
other from the standpoint of the Federal Government as a whole. For this reason, they do not
represent an asset or a liability in the U.S. Government-wide financial statements.




                    These notes are an integral part of the financial statements.


                                                     -43-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 5. Investments, Net (continued)

Treasury securities provide the AFF with authority to draw upon the U.S. Treasury to make
future benefit payments or other expenditures. When the AFF requires redemption of these
securities to make expenditures, the Federal Government finances those expenditures out of
accumulated cash balances, by raising taxes or other receipts, by borrowing from the public or
repaying less debt, or by curtailing other expenditures. This is the same way that the Federal
Government finances all other expenditures.


                                                            Unamortized
                                           Face               Premium               Investments,        Market
                                           Value             (Discount)                 Net             Value
As of September 30, 2013
    Intragovernmental
        Non-Marketable Securities
           Market-Based
                  AFF                 $     4,697,793       $         (692)     $       4,697,101   $    4,697,564
                SADF                        1,371,960                 (896)     $       1,371,064        1,371,898
Total                                 $     6,069,753       $       (1,588)     $       6,068,165   $    6,069,462



As of September 30, 2012
    Intragovernmental
        Non-Marketable Securities
           Market-Based
                  AFF                 $     4,200,904       $         (137)     $       4,200,767   $    4,200,604
                SADF                        1,430,733                 (376)             1,430,357        1,430,532
Total                                 $     5,631,637       $         (513)     $       5,631,124   $    5,631,136




                    These notes are an integral part of the financial statements.


                                                     -44-
                                                 FY 2013 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


Note 6. Accounts Receivable

Accounts receivable consist of amounts owed to the AFF from the Treasury Executive Office for
Asset Forfeiture services provided to Treasury. There is no allowance for uncollectible accounts
since accounts receivable from business with Federal entities are considered fully collectible.

As of September 30, 2013 and 2012
                                                                    2013                 2012
Intragovernmental
    Accounts Receivable                                       $          3,322       $      6,035
      Total Accounts Receivable                               $          3,322       $      6,035


Note 7. Forfeited and Seized Property

Property seized for any purpose other than forfeiture and held by the seizing agency or a
custodial agency is reported in the financial statements of the seizing or custodial agency. All
property seized for forfeiture, including property with evidentiary value, is reported in the
financial statements of the AFF/SADF. Federal Financial Accounting and Auditing Technical
Release No. 4, Reporting on Non-Valued Seized and Forfeited Property, requires disclosure of
property that does not have a legal market in the United States or does not have a value to the
Federal Government.

A.     Forfeited Property

The following tables show the analysis of changes in and methods of disposition of forfeited property,
excluding cash, during the fiscal years ended September 30, 2013 and 2012.




                     These notes are an integral part of the financial statements.


                                                      -45-
                                                                       FY 2013 AFF/SADF Annual Financial Statements
                                                U.S. Department of Justice
                                            Notes to the Financial Statements
                                         (Dollars in Thousands, Except as Noted)


Note 7. Forfeited and Seized Property (continued)


                           Analysis of Changes in Forfeited Property -- For the Fiscal Year Ended September 30, 2013

                                                                                                                                           Liens                Ending
  Forfeited Property                   Beginning                                                                       Ending               and                Balance,
      Category                          Balance      Adjustments (1)      Forfeitures              Disposals           Balance             Claims             Net of Liens


Financial Instruments	    Number               178                 -                 275                      (241)            212                      -               212
                          Value             $1,329                 -             $45,294                  ($44,206)         $2,417                      -            $2,417

Real Property	            Number               418               (2)                 445                      (335)            526                    -                 526
                          Value            $81,996            ($987)             $86,903                  ($69,139)        $98,773              ($1,072)            $97,701

Personal Property	        Number             3,858                 -               5,512                    (5,948)          3,422                      -             3,422
                          Value            $63,972                 -             $53,505                  ($75,707)        $41,770                  ($534)          $41,236

Firearms, Non-Valued	     Number            26,796                 -               9,156                   (11,951)         24,001                      -            24,001

Total                     Number            31,250               (2)              15,388                   (18,475)        28,161                     -              28,161
                          Value           $147,297            ($987)            $185,702                 ($189,052)      $142,960               ($1,606)           $141,354

                         (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court orders



                         M ethods of Disposition of Forfeited Property -- For the Fiscal Year Ended September 30, 2013

                                                                                                               Official Use/
                                                                                                                Transfer for
   Forfeited Property                 Converted Financial           Destroyed/Donated/              Sold/         Equitable        Returned
       Category                        Instruments/Property             Transferred             Liquidated (1)     Sharing          Assets     Variance (2)        Total


Financial Instruments	     Number                           200                           34                6                  -          1                  -          241
                           Value                        $44,061                          $11             $133                  -         $1                  -      $44,206

Real Property	             Number                             1                            7              298               1             28                 -          335
                           Value                             $2                         $235          $63,505            $278         $5,119                 -      $69,139

Personal Property	         Number                             3                         1,022           3,979             767            177                 -        5,948
                           Value                             $2                          $792         $52,218         $10,734        $11,961                 -      $75,707

Firearms, Non-Valued	      Number                              -                    10,842                     -          660           449                  -       11,951

Total                      Number                           204                     11,905              4,283           1,428            655                 -       18,475
                           Value                        $44,065                     $1,038           $115,856         $11,012        $17,081                 -     $189,052

                          (1) The sold/liquidated total dollar value does not agree to Donations and Forfeitures of Property on the Statement of Changes in Net
                          Position and Note 20 because the sold/liquidated amount above represents the assets at their appraised values at forfeiture, and the
                          Donations and Forfeitures of Property on the Statement of Changes in Net Position and Note 20 represents the proceeds realized upon
                          disposition.


                          (2) Variances can result from differences between the value of the property when seized and the value of the property when disposed.




                              These notes are an integral part of the financial statements.


                                                                            -46-
                                                                        FY 2013 AFF/SADF Annual Financial Statements
                                                 U.S. Department of Justice
                                             Notes to the Financial Statements
                                          (Dollars in Thousands, Except as Noted)



Note 7. Forfeited and Seized Property (continued)

                            Analysis of Changes in Forfeited Property -- For the Fiscal Year Ended September 30, 2012

                                       Beginning                                                                       Ending             Liens and            Balance
   Forfeited Property                   Balance       Adjustments (1)     Forfeitures             Disposals            Balance             Claims             Net of Liens
       Category

                         Number                117                 -                 283                      (222)            178                    -                 178
Financial Instruments    Value              $1,730                 -             $25,544                  ($25,945)         $1,329                ($658)               $671

                          Number               452                 -                 390                      (424)            418                    -                 418
Real Property             Value            $98,008                 -             $64,732                  ($80,744)        $81,996                ($977)            $81,019

                          Number             3,384                 -               6,156                    (5,682)          3,858                    -               3,858
Personal Property         Value            $74,846          ($16,146)            $80,856                  ($75,584)        $63,972                ($551)            $63,421

                          Number             23,593                -               17,525                  (14,322)         26,796                    -               26,796
Firearms, Non-Valued
                          Number            27,546                                24,354                   (20,650)        31,250                     -              31,250
Total                     Value           $174,584          ($16,146)           $171,132                 ($182,273)      $147,297               ($2,186)           $145,111



                         (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court orders


                         Methods of Disposition of Forfeited Property -- For the Fiscal Year Ended September 30, 2012


                                                                                                              Official Use/
                                                                                                               Transfer for
   Forfeited Property                 Converted Financial           Destroyed/Donated/             Sold/         Equitable        Returned
       Category                        Instruments/Property             Transferred            Liquidated (1)     Sharing          Assets      Variance (2)        Total


Financial Instruments	     Number                            208                          9                4                  -           1                -            222
                           Value                         $25,024                         $7             $914                  -           -                -        $25,945

Real Property	             Number                              -                        15               363                1             45               -            424
                           Value                               -                    $2,114           $70,789             $179         $7,662               -        $80,744

Personal Property	         Number                             5                          967           3,550              955            205               -          5,682
                           Value                           $117                         $551         $61,007          $11,222         $2,687               -        $75,584

Firearms, Non-Valued	      Number                              -                    12,300                    -          1,522          500                -         14,322

Total                      Number                           213                     13,291              3,917            2,478          751                -         20,650

                           Value                         $25,141                    $2,672          $132,710          $11,401        $10,349               -       $182,273

                          (1) The sold/liquidated total dollar value does not agree to Donations and Forfeitures of Property on the Statement of Changes in Net
                          Position and Note 20 because the sold/liquidated amount above represents the assets at their appraised values at forfeiture, and the
                          Donations and Forfeitures of Property on the Statement of Changes in Net Position and Note 20 represents the proceeds realized upon
                          disposition


                          (2) Variances can result from differences between the value of the property when seized and the value of the property when disposed




                               These notes are an integral part of the financial statements.


                                                                              -47-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)



Note 7. Forfeited and Seized Property (continued)

B.     Seized Property

The following tables show the analysis of changes in and methods of disposition of property
seized for forfeiture during the fiscal years ended September 30, 2013 and 2012. In the following
tables, Seized Cash and Monetary Instruments includes seized cash in transit as well as pre-
forfeiture deposits into the SADF of monetary instruments and depository account balances,
proceeds from pre-forfeiture sales, and cash received in lieu of seized property. Financial
Instruments include negotiable instruments and restricted depository accounts.




                    These notes are an integral part of the financial statements.


                                                     -48-
                                                                            FY 2013 AFF/SADF Annual Financial Statements
                                                     U.S. Department of Justice
                                                 Notes to the Financial Statements
                                              (Dollars in Thousands, Except as Noted)



Note 7. Forfeited and Seized Property (continued)

                            Analysis of Changes in Seized Property -- For the Fiscal Year Ended September 30, 2013

                                                                                                                                            Liens                Ending
    Seized Property                    Beginning                                                                         Ending              and                Balance
       Category                         Balance      Adjus tments (1)      Seizures                 Disposals            Balance            Claims             Net of Liens

Seized Cash and          Number             14,200                 29             14,589                     (13,662)        15,156                      -            15,156
Monetary Instruments     Value          $1,536,523            $24,251         $1,738,021                 ($1,863,512)    $1,435,283              ($114,622)       $1,320,661

Financial Instruments    Number                520                  -                 49                       (165)           404                       -               404
                         Value             $68,368                  -            $39,165                   ($61,520)       $46,013                 ($2,395)          $43,618

Real Property            Number                127                  3                227                       (217)           140                       -               140
                         Value             $45,084            ($3,013)           $75,390                   ($53,678)       $63,783                ($20,618)          $43,165

Personal Property        Number              8,019                  -              6,224                     (7,107)         7,136                       -             7,136
                         Value            $183,797                  -            $59,118                   ($98,493)      $144,422                ($21,356)         $123,066

Firearms, Non-Valued     Number             33,572                  -               13,496                   (16,787)       30,281                        -           30,281

Total                    Number             56,438                 32             34,585                     (37,938)        53,117                      -            53,117
                         Value          $1,833,772            $21,238         $1,911,694                 ($2,077,203)    $1,689,501              ($158,991)       $1,530,510


                         (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court orders



                           Methods of Disposition of Seized Property -- For the Fiscal Year Ended September 30, 2013



    Seized Property                  Converted Financial Destroyed/Donated/    Sold/                   Returned
       Category                      Instruments/Property    Transferred    Liquidated                  Assets            Forfeited (1)         Variance (2)       Total

Seized Cash and          Number                          57                    92               -               956                    12,557             -             13,662
Monetary Instruments     Value                       $4,268                $4,478               -          $137,367                $1,717,399             -         $1,863,512

Financial Instruments	   Number                           2                     4               -                33                       126             -                165
                         Value                          $11                     -               -           $22,054                   $39,455             -            $61,520

Real Property	           Number                           -                     1              1                    18                    197             -                217
                         Value                            -                  $155            $75                $6,207                $47,241             -            $53,678

Personal Property	       Number                           -                    56              3              1,777                     5,271             -              7,107
                         Value                            -                  $192            $31            $38,380                   $59,890             -            $98,493

Firearms, Non-Valued	    Number                           -                    89               -                2,565                 14,133             -             16,787

Total                    Number                          59                   242               4             5,349                    32,284             -             37,938
                         Value                       $4,279                $4,825            $106          $204,008                $1,863,985             -         $2,077,203


                         (1) Forfeitures reported on the Analysis of Change in Forfeited Property may be greater because some assets are not seized until after they are
                         declared forfeited
                         (2) Variances can result from differences between the value of the property when seized and the value of the property when disposed




                                 These notes are an integral part of the financial statements.


                                                                                      -49-
                                                                            FY 2013 AFF/SADF Annual Financial Statements
                                                     U.S. Department of Justice
                                                 Notes to the Financial Statements
                                              (Dollars in Thousands, Except as Noted)


Note 7. Forfeited and Seized Property (continued)

                             Analysis of Changes in Seized Property -- For the Fiscal Year Ended September 30, 2012

                                                                                                                                              Liens               Ending
    Seized Property                    Beginning                                                                        Ending                 and               Balance
       Category                         Balance       Adjustments (1)      Seizures                 Disposals           Balance               Claims            Net of Liens

Seized Cash and          Number              12,048                   -           15,127                     (12,975)       14,200                       -             14,200
Monetary Instruments     Value           $4,016,891                   -       $1,587,055                 ($4,067,423)   $1,536,523               ($125,969)        $1,410,554

Financial Instruments    Number                477                 (135)                328                     (150)          520                       -                520
                         Value             $53,241             ($33,852)            $55,920                  ($6,941)      $68,368                 ($4,851)           $63,517

Real Property            Number                146                  (2)                 131                    (148)           127                       -                127
                         Value             $48,364                $365              $35,139                ($38,784)       $45,084                 ($9,710)           $35,374

Personal Property        Number              7,477                    -            8,264                     (7,722)        8,019                        -              8,019
                         Value            $184,003                    -         $107,126                  ($107,332)     $183,797                 ($16,667)          $167,130

Firearms, Non-Valued     Number              36,915                   -              19,716                  (23,059)       33,572                          -          33,572

Total                    Number              57,063                (137)          43,566                     (44,054)       56,438                       -             56,438
                         Value           $4,302,499            ($33,487)      $1,785,240                 ($4,220,480)   $1,833,772               ($157,197)        $1,676,575

                         (1) Adjustments represent changes in the valuation or status of property as a result of fair market appraisals and court orders




                           Methods of Disposition of Seized Property -- For the Fiscal Year Ended September 30, 2012



    Seized Property                  Converted Financial Destroyed/Donated/    Sold/                 Returned
       Category                      Instruments/Property    Transferred    Liquidated                Assets            Forfeited (1)         Variance (2)        Total

Seized Cash and          Number                           34                   86               -              864                 11,991               -              12,975
Monetary Instruments     Value                        $5,748               $4,053               -          $46,656             $4,010,966               -          $4,067,423

Financial Instruments	   Number                           2                    8                -                 22                    118             -                 150
                         Value                           $4                 $345                -               $467                 $6,125             -              $6,941

Real Property	           Number                            -                   4                -               13                    131               -                 148
                         Value                             -                $793                -           $1,201                $36,790               -             $38,784

Personal Property	       Number                            -                  157               6            1,795                  5,764               -               7,722
                         Value                             -               $1,886             $42          $37,584                $67,820               -            $107,332

Firearms, Non-Valued	    Number                            -                1,060               -               1,194                20,805             -              23,059

Total                    Number                           36                1,315               6            3,888                 38,809               -              44,054
                         Value                        $5,752               $7,077             $42          $85,908             $4,121,701               -          $4,220,480

                         (1) Forfeitures reported on the Analysis of Changes in Forfeited Property may be greater because some assets are not seized until after they are
                         declared forfeited
                         (2) Variances can result from differences between the value of the property when seized and the value of the property when disposed




                                  These notes are an integral part of the financial statements.


                                                                                       -50-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 7. Forfeited and Seized Property (continued)

C.     Anticipated Equitable Sharing in Future Periods

The statute governing the use of the AFF (28 U.S.C. §524(c)) permits the payment of equitable
shares of forfeiture proceeds to participating foreign governments, and state and local law
enforcement agencies. The statute does not require such sharing and permits the Attorney
General wide discretion in determining those transfers. Actual sharing is difficult to predict
because many factors influence both the amount and time of disbursement of equitable sharing
payments, such as the length of time required to move an asset through the forfeiture process to
disposition, the amount of net proceeds available for sharing, the lapse of time for Departmental
approval of equitable sharing requests for cases with asset values exceeding $1 million, and
appeal of forfeiture judgments. Because of uncertainties surrounding the timing and amount of
any equitable sharing payment, an obligation and expense are recorded only when the actual
disbursement of the equitable sharing payment is imminent. The anticipated equitable sharing
allocation level for FY 2014 is $387 million.

Note 8. General Property, Plant and Equipment, Net

                                       Acquisition        Accumulated          Net Book      Useful
                                         Cost             Depreciation          Value         Life
As of September 30, 2013

Leasehold Improvements                 $      1,046                (470)      $      576       5 years
Equipment                                        74                 (47)              27    5-12 years
  Total                                $      1,120          $     (517)      $      603

As of September 30, 2012

Leasehold Improvements                 $      1,046          $     (470)      $       576      5 years
Equipment                                        74                 (31)               43   5-12 years
Internal Use Software                           709                (178)              531      7 years
    Total                              $      1,829          $     (679)      $     1,150

Based upon early implementation of DOJ Financial Management Policy Memorandum (FMPM)
13-12, Capitalization of General Property, Plant, and Equipment and Internal Use Software, the
AFF revised its method for reporting the capitalization of real property; personal property; and
internal use software which caused a decrease in the PP&E balance by $531 as described in Note
23.


                    These notes are an integral part of the financial statements.


                                                      -51-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 9. Other Assets

As of September 30, 2013 and 2012
                                                            2013                       2012
Intragovernmental
    Advances and Prepayments                        $                  -        $             2,339

Note 10. Liabilities not Covered by Budgetary Resources

As of September 30, 2013 and 2012
                                                                       2013                           2012

   Accrued Annual and Compensatory Leave Liability                 $       1,726         $                     246
   Total Liabilities not Covered by Budgetary Resources                    1,726                               246
   Total Liabilities Covered by Budgetary Resources                    4,530,514                         4,349,667
   Total Liabilities                                               $   4,532,240         $               4,349,913


Note 11. Seized Cash and Monetary Instruments

The Seized Cash and Monetary Instruments represent liabilities for seized assets held by the
SADF pending disposition.

As of September 30, 2013 and 2012
                                                                       2013                           2012

   Investments, Net (Note 5)                                 $             1,371,064          $        1,430,357
   Seized Cash Deposited (Note 4)                                             40,063                      82,166
   Seized Monetary Instruments (Note 4)                                       24,156                      24,000
     Total Seized Cash and Monetary Instruments              $             1,435,283          $        1,536,523




                    These notes are an integral part of the financial statements.


                                                     -52-
                                                   FY 2013 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 12. Other Liabilities

All Other Liabilities are current liabilities.

As of September 30, 2013 and 2012
                                                                    2013                       2012
Intragovernmental
    Employer Contributions and Payroll Taxes Payable            $            146       $                39


Note 13. Contingencies and Commitments

                                                  Accrued                    Estimated Range of Loss
                                                  Liabilities              Lower             Upper
      As of September 30, 2013
         Reasonably Possible                  $                 -    $         2,000       $          3,250

      As of September 30, 2012
         Reasonably Possible                  $                 -    $         2,000       $          3,250




                      These notes are an integral part of the financial statements.


                                                         -53-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 14. Funds from Dedicated Collections

The AFF, a fund from dedicated collections, exists to eliminate economic disincentives to
operation of an extensive national asset forfeiture program by providing a stable source of funds
to pay costs, not otherwise funded under agency appropriations, to execute forfeiture functions.
This is made possible by depositing the proceeds of all forfeitures under any laws enforced or
administered by the Department into the Fund, and using those receipts to finance expenses
associated with asset forfeiture functions.

The funds in the AFF are derived primarily from financing sources and are presented on the
Consolidated Statement of Changes in Net Position as both Budgetary and Other Financing
Sources. Financing sources consist of (1) interest earned on Treasury investments (i.e.,
nonexchange revenues) and (2) non-governmental donations and forfeitures, which include
forfeited cash, proceeds from the sale of forfeited property (or conversion of deferred revenue to
realized revenue through sale), receipt of payments in lieu of property forfeiture, recovery of
asset management expenses, and financing sources from judgments.

The AFF recognizes exchange revenue, on a reimbursement basis, when the United States
Attorneys Offices provide services in judicial forfeiture cases brought by agencies participating
in the Treasury Forfeiture Fund. This revenue is presented on the Consolidated Statement of Net
Cost as earned revenue. In accordance with 28 U.S.C. § 524 donations and forfeitures available
for use by certain Federal agencies are treated as returns of financing sources when disbursed.

All funds deposited to the AFF are considered "public" monies, i.e., funds belonging to the U.S.
Government. The monies deposited into the AFF are available to cover all expenditures in
support of the AFP that are allowable under the Fund statute created by the Comprehensive
Crime Control Act of 1984 (P.L. 98-473, dated October 12, 1984) at 28 U.S.C. § 524(c).




                    These notes are an integral part of the financial statements.


                                                     -54-
                                                   FY 2013 AFF/SADF Annual Financial Statements
                                        U.S. Department of Justice
                                    Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)


Note 14. Funds from Dedicated Collections (continued)

As of September 30, 2013 and 2012

                                                            2013                       2012
Balance Sheet
    Assets
        Fund Balance with U.S. Treasury              $         110,344          $          78,375
        Investments, Net                                     4,697,101                  4,200,767
        Other Assets                                           145,279                    154,634
           Total Assets                              $       4,952,724          $       4,433,776

    Liabilities
        Accounts Payable                             $       2,952,453          $       2,667,843
        Other Liabilities                                      144,504                    145,546
             Total Liabilities                       $       3,096,957          $       2,813,389

    Net Position
       Cumulative Results of Operations              $       1,855,767          $       1,620,387
          Total Net Position                         $       1,855,767          $       1,620,387
          Total Liabilities and Net Position         $       4,952,724          $       4,433,776


For the Fiscal Years Ended September 30, 2013 and 2012

                                                            2013                       2012
Statement of Net Cost
        Gross Cost of Operations                     $       1,787,551          $       4,319,407
        Less: Earned Revenue                                    12,201                     10,585
           Net Cost of Operations                    $       1,775,350          $       4,308,822

Statement of Changes in Net Position
     Net Position Beginning of Period                $        1,619,856         $       1,760,544
     Budgetary Financing Sources                              1,831,586                 4,197,792
     Other Financing Sources                                    179,675                   (29,127)
        Total Financing Sources                               2,011,261                 4,168,665
     Net Cost of Operations                                  (1,775,350)               (4,308,822)
     Net Change                                                 235,911                  (140,157)
     Net Position End of Period                      $        1,855,767         $       1,620,387


                       These notes are an integral part of the financial statements.


                                                         -55-
                                                 FY 2013 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


Note 15. 	Net Cost of Operations by Suborganization

                                                                                Less: Earned       Net Cost of
                                                                                  Revenue          Operations
                                                            Gross Cost
For the Fiscal Year Ended September 30, 2013
   Goal 2:	   Payments to Third Parties                $          446,105       $          -   $         446,105
              Asset Management Expenses                            71,990                  -              71,990
              Special Contract Services                           145,085             12,201             132,884
              ADP Equipment                                        33,062                  -              33,062
              Forfeiture Case Prosecution                          39,877                  -              39,877
              Forfeiture Training and Printing                        (84)                 -                 (84)
              Other Program Management                             30,338                  -              30,338
              Awards for Information                               29,966                  -              29,966
              Purchase of Evidence                                  8,053                  -               8,053
              Equipping Conveyances                                   357                  -                 357
              Contracts to Identify Assets                         50,322                  -              50,322
              Investigative Cost Leading to Seizure                70,257                  -              70,257
              Equitable Sharing                                   710,444                  -             710,444
              Joint Law Enforcement Operations                    151,779                  -             151,779
                 Net Cost of Operations                 $       1,787,551      $      12,201   $       1,775,350
   Goal 2:	   Prevent Crime, Protect The Rights of the American People, and Enforce Federal Law


                                                                               Less: Earned        Net Cost of
                                                             Gross Cost          Revenue           Operations
For the Fiscal Year Ended September 30, 2012
   Goal 2:	    Payments to Third Parties                     $ 3,003,499       $           -       $   3,003,499
               Asset Management Expenses                          64,051                   -              64,051
               Special Contract Services                         145,648              10,585             135,063
               ADP Equipment                                       9,062                   -               9,062
               Forfeiture Case Prosecution                        48,859                   -              48,859
               Forfeiture Training and Printing                    6,719                   -               6,719
               Other Program Management                           56,204                   -              56,204
               Awards for Information                             27,180                   -              27,180
               Purchase of Evidence                                9,068                   -               9,068
               Equipping Conveyances                                 381                   -                 381
               Contracts to Identify Assets                       29,777                   -              29,777
               Investigative Cost Leading to Seizure              77,663                   -              77,663
               Equitable Sharing                                 681,019                   -             681,019
               Joint Law Enforcement Operations                  160,277                   -             160,277
                  Net Cost of Operations                     $ 4,319,407       $      10,585       $   4,308,822

   Goal 2:	    Prevent Crime, Protect The Rights of the American People, and Enforce Federal Law

                     These notes are an integral part of the financial statements.


                                                      -56-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)



Note 16. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-reimbursed
and under-reimbursed) portion of the full costs of goods and services received by the AFF from a
providing entity that is not part of the Department of Justice. In accordance with SFFAS No. 30,
Inter-Entity Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Concepts
and Standards for the Federal Government, the material Imputed Inter-Departmental Financing
Sources recognized by the AFF are the cost of benefits for the Federal Employees Health
Benefits Program (FEHB), the Federal Employees’ Group Life Insurance Program (FEGLI), the
Federal Pension plans that are paid by other Federal entities, and any un-reimbursed payments
made from the Treasury Judgment Fund on behalf of the AFF. The Treasury Judgment Fund was
established by the Congress and funded at 31 U.S.C. 1304 to pay in whole or in part the court
judgments and settlement agreements negotiated by the Department on behalf of agencies, as
well as certain types of administrative awards. Interpretation of Federal Financial Accounting
Standards Interpretation No. 2, Accounting for Treasury Judgment Fund Transactions, requires
agencies to recognize liabilities and expenses when unfavorable litigation outcomes are probable
and the amount can be estimated and will be paid by the Treasury Judgment Fund.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing
agencies recognize the cost of pensions and other retirement benefits during their employees’
active years of service. SFFAS No. 5 requires OPM to provide cost factors necessary to calculate
cost. OPM actuaries calculate the value of pension benefits expected to be paid in the future, and
then determine the total funds to be contributed by and for covered employees, such that the
amount calculated would be sufficient to fund the projected pension benefits. For employees
covered by Civil Service Retirement System (CSRS), the cost factors are 32.3% of basic pay for
regular, 54.9% law enforcement officers, 24.6% regular offset, and 48.1% law enforcement
officers offset. For employees covered by Federal Employees Retirement System (FERS), the
cost factors are 14.2% of basic pay for regular and 30.7% for law enforcement officers. For
employees covered by Federal Employees Retirement System-Revised Annuity Employees
(RAE), the cost factors are 14.2% of basic pay for regular and 30.7% for law enforcement
officers.


The cost to be paid by other agencies is the total calculated future costs, less employee and
employer contributions. In addition, the cost of other retirement benefits, which included health
and life insurance that are paid by other Federal entities, must also be recorded.

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government, are the unreimbursed portion
of the full costs of goods and services received by the AFF from another component in the
Department. The AFF does not have any imputed intra-departmental financing sources that meet
the reporting requirements of the Department.

                    These notes are an integral part of the financial statements.


                                                     -57-
                                                      FY 2013 AFF/SADF Annual Financial Statements
                                       U.S. Department of Justice
                                   Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)




Note 16. Imputed Financing from Costs Absorbed by Others (continued)

For the Fiscal Years Ended September 30, 2013 and 2012
                                                                      2013                    2012
Imputed Inter-Departmental Financing
   Health Insurance                                             $              828        $            363
   Life Insurance                                                                2                       2
   Pension                                                                     349                     171
      Total Imputed Inter-Departmental                          $            1,179        $            536



Note 17. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

                                                                                                     Total
                                                       Direct              Reimbursable           Obligations
                                                      Obligations           Obligations            Incurred
For the Fiscal Year Ended September 30, 2013
   Obligations Apportioned Under
      Category A                                  $          19,195    $                  -   $           19,195
      Category B                                          1,790,227                  12,201            1,802,428
   Total                                         $        1,809,422    $             12,201   $        1,821,623



For the Fiscal Year Ended September 30, 2012
   Obligations Apportioned Under
      Category A                                  $          19,636    $                  -   $           19,636
      Category B                                          4,498,148                  10,585            4,508,733
   Total                                         $        4,517,784    $             10,585   $        4,528,369


Apportionment categories are determined in accordance with the guidance provided in Part 4
Instructions on Budget Execution of OMB Circular No. A-11, Preparation, Submission, and
Execution of the Budget. Category A represents resources apportioned for calendar quarters.
Category B represents resources apportioned for other periods; for Asset Forfeiture Program
Expenses. For a complete list of program expenses see Note 15.




                        These notes are an integral part of the financial statements.


                                                          -58-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDOs) represent the amount of goods and/or services ordered, which have
not been actually or constructively received. This amount includes any orders which may have
been prepaid or advanced but for which delivery or performance has not yet occurred.

As of September 30, 2013 and 2012
                                                               2013                   2012

UDO Obligations Unpaid                                      $ 177,899               $ 181,349
UDO Obligations Prepaid/Advanced                                    -                   2,340
   Total UDOs                                               $ 177,899               $ 183,689

Permanent Indefinite Appropriations:

28 U.S.C. § 524(c)(1) authorizes the Attorney General to use AFF receipts to pay program
operations expenses, equitable sharing to state and local law enforcement agencies who assist in
forfeiture cases, and lien holders. This permanent indefinite authority is open-ended as to both its
period of availability (amount of time the agency has to spend the funds) and its amount.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated
and that remains available for obligation, unless otherwise restricted. Excess unobligated
balances identified at the end of a fiscal year may be declared a “Super Surplus” balance. Super
Surplus balances may be allocated at the discretion of the Attorney General for “…any Federal
law enforcement, litigative/prosecutive, and correctional activities, or any other authorized
purpose of the DOJ” pursuant to 28 U.S.C. § 524(c)(8)(E).




                    These notes are an integral part of the financial statements.


                                                     -59-
                                                      FY 2013 AFF/SADF Annual Financial Statements
                                          U.S. Department of Justice
                                      Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs. the Budget of the United States Government:

The reconciliation as of September 30, 2013 is not presented because the submission of the
Budget of the United States (Budget) for FY 2015, which presents the execution of the FY 2013
Budget, occurs after publication of these financial statements. The Department of Justice Budget
Appendix can be found on the OMB website (http://www.whitehouse.gov/omb/budget) and will
be available in early February 2014.

For the Fiscal Year Ended September 30, 2012
(Dollars in Millions)
                                                                                           Distributed
                                                           Budgetary      Obligations      Offsetting         Net
                                                           Resources       Incurred         Receipts         Outlays
 Statement of Budgetary Resources (SBR)                  $        5,290 $          4,528 $             3 $          2,671
 Funds not Reported in Budget of the U.S.
    Forfeiture Activity                                             (106)               -             -                -
    OCDETF Adjustments                                               (25)             (26)            -                -
    Special and Trust Funds Receipts                                   -                -             -                3

 Budget of the United States Government                  $          5,159 $          4,502 $         3 $           2,674


Funds not reported in the Budget - Forfeiture Activity, primarily represent forfeiture activities
that are unavailable until the authority is granted in the subsequent year. These activities
represent real estate sales and accrued revenue. Other differences represent financial statement
adjustments, timing differences, and other immaterial differences between amounts reported in
the AFF’s SBR and the Budget of the United States.




                          These notes are an integral part of the financial statements.


                                                             -60-
                                                   FY 2013 AFF/SADF Annual Financial Statements
                                      U.S. Department of Justice
                                  Notes to the Financial Statements
                               (Dollars in Thousands, Except as Noted)


Note 18. Super Surplus and Official Use Transfers

The AFF’s statute, 28 U.S.C. §524(c)(8)(E), provides the Attorney General with the authority to
use the AFF’s excess unobligated balance remaining at the end of a FY without fiscal year
limitation for any Federal law enforcement, litigative/prosecutive, and correctional activities, or
any other authorized purpose of the Department of Justice. The excess unobligated balance
consists of the AFF’s unobligated balance at the end of the FY after the Program’s operational
needs for the subsequent year are reserved. The excess unobligated balance is historically known
as “Super Surplus.”

The Attorney General approved the following current year allocations of previously declared
Super Surplus during FYs 2013 and 2012. The most recent Super Surplus declarations were in
FYs 2005, 2008 and 2012.

For the Fiscal Years Ended September 30, 2013 and 2012

                                                                                   2013             2012
Civil Division                                                                            338   $         338
Executive Office for U.S. Attorneys                                                        19              30
Bureau of Prisons                                                                           -         151,000
Community Oriented Policing Services                                                        -          (6,282)
   Total DOJ Allocations                                                    $             357   $     145,086

2005 Super Surplus                                                          $             357   $         368
2008 Super Surplus                                                                          -          (6,282)
2012 Super Surplus                                                                          -         151,000
   Total Allocations                                                        $             357   $     145,086




                       These notes are an integral part of the financial statements.


                                                        -61-
                                                FY 2013 AFF/SADF Annual Financial Statements
                                   U.S. Department of Justice
                               Notes to the Financial Statements
                            (Dollars in Thousands, Except as Noted)


Note 18. Super Surplus and Official Use Transfers (continued)

Since Super Surplus authority is not the result of an exchange of goods or services between the
AFF and the agency receiving the funding, the AFF records the allocation of Super Surplus funds
to the agencies as transfers out. The agencies receiving Super Surplus authority record transfers-
in. For the fiscal years ended September 30, 2013 and 2012, $357 and $144,729 was transferred
out respectively. The AFF also records a liability for the amount of any Super Surplus provided
in the current or prior fiscal years that has not yet been transferred out. As of September 30, 2013
and 2012, Super Surplus liabilities totaled $357 and $70, respectively.

Transfers-out of Forfeited Property for Official Use. Property was distributed pursuant to the
Attorney General’s authority to share forfeiture revenues with agencies that participated in the
forfeiture that generated the property, and pursuant to the DOJ’s authority to place forfeited
property into official use by the Government. For the fiscal years ended September 30, 2013 and
2012, transfers-out of forfeited property for official use totaled $7,158 and $5,190, respectively.


Note 19. Nonexchange Revenues

Nonexchange revenue consists of income from the investment of the AFF and SADF in U.S.
Treasury securities. The investment accrual revenue represents the amortization of the discount
on marketable bills using the straight-line basis.

For the Fiscal Years Ended September 30, 2013 and 2012

                                                                 2013                   2012

Income from AFF investments                               $             2,163       $          1,685
Income from SADF investments                                            1,223                  1,561
Amortization of AFF/SADF discount/(premium)                             1,720                     81
   Total Investment Income                                $             5,106       $          3,327




                    These notes are an integral part of the financial statements.


                                                     -62-
                                                  FY 2013 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 20. Donations and Forfeitures

Forfeiture income includes forfeited cash, sales of forfeited property, penalties in lieu of
forfeiture, recovery of returned asset management costs, judgment collections, and other
miscellaneous income. For the Fiscal Years ended September 30, 2013 and 2012, net forfeiture
income attributable to the AFF totaled $2,012,249 and $4,314,710 respectively, after the
following payments and returns to agencies participating in seizures that led to forfeiture.

                                                                        2013               2012

Payments to individuals or organizations for proceeds from        $            530     $     14,654
assets forfeited and deposited into the AFF and
subsequently returned to them through a settlement
agreement or by court order.
Return of forfeiture income to the TFF for its participation               67,140           107,521
in seizures that led to forfeiture.

Return of forfeiture income to the U.S. Postal Service for                   1,844           54,948
its participation in seizures that led to forfeiture.

Return of forfeiture income to other Federal agencies for                      (240)              725
their participation in seizures that led to forfeiture.

Total Return of Forfeiture Income                                 $        69,274      $    177,848




                      These notes are an integral part of the financial statements.


                                                       -63-
                                                 FY 2013 AFF/SADF Annual Financial Statements
                                    U.S. Department of Justice
                                Notes to the Financial Statements
                             (Dollars in Thousands, Except as Noted)


Note 21. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)

For the Twelve Months Ended September 30, 2013 and 2012
                                                                                     2013            2012
Resources Used to Finance Activities
    Budgetary Resources Obligated
       Obligations Incurred                                                  $   1,821,623       $   4,528,369
       Less: Spending Authority from Offsetting Collections and
              Recoveries                                                            97,315             101,213
       Obligations Net of Offsetting Collections and Recoveries                  1,724,308           4,427,156
       Less: Offsetting Receipts                                                     5,106               3,327
       Net Obligations                                                           1,719,202           4,423,829

    Other Resources
        Donations and Forfeitures of Property                                      185,769             120,245
        Transfers-In/Out Without Reimbursement                                      (7,273)           (149,908)
        Imputed Financing from Cost Absorbed by Others (Note 16)                     1,179                 536
        Net Other Resources Used to Finance Activities                             179,675             (29,127)
Total Resources Used to Finance Activities                                       1,898,877           4,394,702

Resources Used to Finance Items not Part of the Net Cost of
   Operations
    Change in Budgetary Resources Obligated for Goods, Services,
       and Benefits Ordered but not Yet Provided                                        6,792           (6,075)
    Budgetary Offsetting Collections and Receipts That do not
       Affect Net Cost of Operations                                                 (180,664)        (116,918)
    Resources That Finance the Acquisition of Assets                                        -           (1,188)
    Other Resources or Adjustments to Net Obligated Resources
        That do not Affect Net Cost of Operations                                       6,627            5,230
Total Resources Used to Finance Items not Part of the Net Cost
    of Operations                                                                    (167,245)       (118,951)
Total Resources Used to Finance the Net Cost of Operations                       1,731,632       $   4,275,751




                     These notes are an integral part of the financial statements.


                                                      -64-
                                                  FY 2013 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)




Note 21. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing) (continued)

For the Twelve Months Ended September 30, 2013 and 2012

                                                                                      2013            2012
Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period
    Components That Will Require or Generate Resources
        in Future Periods (Note 22)                                               $      1,480    $          77
    Components not Requiring or Generating Resources
        Depreciation and Amortization                                                       14              134
        Other                                                                           42,224          32,860
Total Components of Net Cost of Operations That Will not
    Require or Generate Resources in the Current Period                           $     43,718    $     33,071

Net Cost of Operations                                                            $   1,775,350   $   4,308,822




                      These notes are an integral part of the financial statements.


                                                       -65-
                                                  FY 2013 AFF/SADF Annual Financial Statements
                                     U.S. Department of Justice
                                 Notes to the Financial Statements
                              (Dollars in Thousands, Except as Noted)


Note 22. Explanation of Differences Between Liabilities not Covered by Budgetary
Resources and Components of Net Cost of Operations Requiring or Generating Resources
in Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is no
certainty that budgetary authority will be realized, such as the enactment of an appropriation, are
considered liabilities not covered by budgetary resources. These liabilities totaling $1,726 and
$246 on September 30, 2013 and 2012, respectively, are discussed in Note 10, Liabilities not
Covered by Budgetary Resources. Decreases in these liabilities result from current year
budgetary resources that were used to fund expenses recognized in prior periods. Increases in
these liabilities represent unfunded expenses that were recognized in the current period. These
increases, along with the change in the portion of exchange revenue receivables from the public,
which are not considered budgetary resources until collected, represent components of current
period net cost of operations that will require or generate budgetary resources in future periods.
The changes in liabilities not covered by budgetary resources and receivables generating
resources in future periods are comprised of the following:


For the Fiscal Years Ended September 30, 2013 and 2012

                                                                                          2013           2012
Components of Net Cost of Operations That Will Require or Generate
     Resources in Future Periods
       Increase in Accrued Annual and Compensatory Leave Liabilities                         1,480   $          77
              Total Resources that Fund Expenses Recognized in Prior Periods          $      1,480   $          77




                      These notes are an integral part of the financial statements.


                                                         -66-
                                   U.S. Department of Justice 

                                Notes to the Financial Statements 

                             (Dollars in Thousands, Except as Noted) 



Note 23. Change in Accounting Principle

Based upon early implementation of DO] Financial Management Policy Memorandl1ll1 (FMPM)
13- 12, Capitali=atioll ofGeneral Property, Plallt, and Equipmellt and Internal Use Software,
AFF revised its capitalization threshold for real propel1y, personal property, and intemal use
software. The primary impact of the policy change was an increase in the thresholds for
capitalizing and rep0l1ing real propel1y, including leasehold improvements; personal propel1y;
and internal use software. The change in accOlmting principle caused a $53 1 reduction in the
overall PP&E balance and the pre-FY 2013 effect is recognized in the FY 2013 beginning
balance of cumulative results of operations on the Consolidated Statement of Changes in Net
Position. TIle effect of the new policy reduced the AFF assets for Propel1y, Plant and Equipment
as illustrated in the table below .


Type ofPropel1y                                 Asset value adjustment

Intemal Use Software                                                        $      53 1


Total




                    Thl'Sl' notl'S al·l' an intl'gral part ofthl' financial statl'ml'nts.



                                                          -67­
This page intentionally left blank. 





                 -68-
     U.S. DEPARTMENT OF JUSTICE

Assets Forfeiture Fund and Seized Asset Deposit Fund 


                  Other Information
                     (Unaudited)




                         -69-
This page intentionally left blank. 





                 -70-
                           U. S. Department of Justice 

             Assets Fo rfeiture Fund a nd Seized Asset Deposit F und 

                         Combined Schedule of Spe nding 

                For tb e Fiscal Yea r E nde d Sel}te m ber 30,2013 


Dolim S III Thousauds                                                2013


What M on{'y is Availabl{' to Sp{'nd ?

Total Resources                                                  $       2,708,36 1
Less AmOlUlt Available but Not Agreed to be Spent                          639.27 1
Less AmOlUlt Not Available to be Spent                                     247,467
Total A mount s Agl'{'ed to b{' Spent                            S       1,821,623

How was th{' Money Spent
Per sOimei Compensation and Benefits
             1100        Per sonnel Compensation                 $          33.599
             1200        Per solUlel Benefits                               10,843
Other Program Related Expenses
             21 00       Travel & Transportation of Persons                  5.763
             2200        Transportation of Things                            1,204
             2300        Rent. Conullunications. and Utilities              33 .370
             2400        Printing and Reproduction                           1,982
             2500        Other Contracnrnl Selvices                      1.716,256
             2600        Supplies and Materials                              3,926
             3100        Equipment                                          10.168
             3200        Land and Stmctures                                       ­
             4100        Gr ants                                                  ­
             4200        Insurance Claims and Indemnities                      106
             4300        Inter est and Dividen ds                            4,406
Total A mounts Agl'{'{'d to b{' Spe.nt                           $       1,821,623

Who did the Mon{'y go to?
For Profit                                                               1,286,133
Government                                                                 501.4 18
Employees                                                                   33,599
Other                                                                          473
Total A moun ts Agl'{'{'d to b{' Spent                           $       1,821,623




                                         - 7 1­
This page intentionally left blank. 





                 -72-
     U.S. DEPARTMENT OF JUSTICE
	
Assets Forfeiture Fund and Seized Asset Deposit Fund 


                     Appendix
	




                         -73-
This page intentionally left blank. 





                 -74-
                                                                       APPENDIX


                 OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND SUMMARY OF ACTIONS

                  NECESSARY TO CLOSE THE REPORT


       The Office of the Inspector General (OIG) provided a draft of the
Independent Auditors’ Report on Internal Control over Financial Reporting Based on
an Audit of Financial Statements Performed in Accordance with Government
Auditing Standards to the Assets Forfeiture Fund and Seized Asset Deposit Fund
(AFF/SADF). The AFF/SADF management’s response is incorporated in the
Independent Auditors’ Report on Internal Control over Financial Reporting Based on
an Audit of Financial Statements Performed in Accordance with Government
Auditing Standards of this final report. The following provides the report’s
recommendations, the status of the recommendations, the OIG analysis of the
response, and a summary of actions necessary to close the report.

Recommendation:

1.	   Review the posting logic for forfeiture revenue document types and
      the business process instructions regarding the use of each
      document type to ensure the transactions result in accurate
      presentation in the financial statements.

      Resolved. The AFF/SADF management concurred with the recommendation.
      The AFF/SADF management stated in its response that the Justice
      Management Division (JMD) Asset Forfeiture Management Staff (AFMS) and
      Finance Staff will review the posting logic for forfeiture revenue document
      types and the business process instructions regarding the use of each
      document type to ensure that the transactions result in accurate presentation
      in the financial statements.

      This recommendation can be closed when subsequent annual financial
      statement audit testing verifies that AFF/SADF management has reviewed
      the business process instructions regarding the use of each forfeiture
      revenue document type to ensure the transactions result in accurate
      presentation in the financial statements using the correct posting logic.

2.	   Implement analytical review and analysis procedures, including the
      comparison of current year to prior year financial statement account
      balances, interrelated disclosures, and the investigation of significant
      fluctuations, as part of the financial statement preparation and
      review process.

      Resolved. The AFF/SADF management concurred with the recommendation.
      The AFF/SADF management stated in its response that the JMD AFMS will
      work with the JMD Finance Staff to develop and implement analytical review
      procedures over the quarterly financial statements to ensure that anomalies
      are investigated and any corrections needed are implemented timely.




                                       -75-
                                                                         APPENDIX




      This recommendation can be closed when subsequent annual financial
      statement audit testing verifies that AFF/SADF management has
      implemented analytical review and analysis procedures to adequately
      investigate and explain significant fluctuations in financial statement account
      balances and interrelated disclosures.

3.	   Reinforce procedures and provide additional training to entity
      personnel for accurately recording cash receipts in UFMS.

      Resolved. The AFF/SADF management concurred with the recommendation.
      The AFF/SADF management stated in its response that the JMD AFMS and
      Finance Staff will reinforce revenue recognition procedures and provide
      training to UFMS users, including the U.S. Marshals Service (USMS), to clarify
      the procedures and rules for proper revenue recognition. The JMD AFMS and
      Finance Staff will also work with the USMS to implement additional controls
      for validation and reconciliation of cash receipt transactions.

      This recommendation can be closed when subsequent annual financial
      statement audit testing verifies that AFF/SADF management has reinforced
      procedures and provided additional training to ensure cash receipts are
      accurately recorded in UFMS.

4.	   Implement more effective procedures over review of the Annual
      Financial Statement journal entries to supplement existing higher
      level management reviews over the Trial Balance and financial
      statements.

      Resolved. The AFF/SADF management concurred with the recommendation.
      The AFF/SADF management stated in its response that the JMD AFMS and
      Finance Staff will develop a detailed process for reviewing the journal
      vouchers, trial balances, and financial statements and will document those
      procedures for easy reference and review support.

      This recommendation can be closed when subsequent annual financial
      statement audit testing verifies that AFF/SADF management adequately
      reviews the Annual Financial Statement journal entries.




                                        -76-
